<html>
<title> - [H.A.S.C. No. 113-44] FISCAL YEAR 2014 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR MISSILE DEFENSE PROGRAMS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 113-44]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2014

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

              BUDGET REQUEST FOR MISSILE DEFENSE PROGRAMS

                               __________

                              HEARING HELD

                              MAY 8, 2013




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                      U.S. GOVERNMENT PRINTING OFFICE

  82-459                   WASHINGTON : 2014
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7413041b34170107001c1118045a171b195a">[email&#160;protected]</a>  















                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona                JIM COOPER, Tennessee
DOUG LAMBORN, Colorado               LORETTA SANCHEZ, California
MIKE COFFMAN, Colorado               JAMES R. LANGEVIN, Rhode Island
MO BROOKS, Alabama                   RICK LARSEN, Washington
JOE WILSON, South Carolina           JOHN GARAMENDI, California
MICHAEL R. TURNER, Ohio              HENRY C. ``HANK'' JOHNSON, Jr., 
JOHN FLEMING, Louisiana                  Georgia
RICHARD B. NUGENT, Florida           ANDRE CARSON, Indiana
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
                         Tim Morrison, Counsel
                         Leonor Tomero, Counsel
                           Eric Smith, Clerk













                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Wednesday, May 8, 2013, Fiscal Year 2014 National Defense 
  Authorization Budget Request for Missile Defense Programs......     1

Appendix:

Wednesday, May 8, 2013...........................................    23
                              ----------                              

                         WEDNESDAY, MAY 8, 2013
  FISCAL YEAR 2014 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR 
                        MISSILE DEFENSE PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Creedon, Hon. Madelyn R., Assistant Secretary of Defense for 
  Global Strategic Affairs, Office of the Secretary of Defense...     1
Gilmore, Hon. J. Michael, Director, Operational Test and 
  Evaluation, Office of the Secretary of Defense.................     4
Syring, VADM James D., USN, Director, Missile Defense Agency.....     3

                                APPENDIX

Prepared Statements:

    Creedon, Hon. Madelyn R......................................    29
    Gilmore, Hon. J. Michael.....................................    64
    Rogers, Hon. Mike............................................    27
    Syring, VADM James D.........................................    40

Documents Submitted for the Record:

    Hon. Michael R. Turner's Letter to President Barack Obama, 
      Dated April 17, 2013.......................................    75

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Brooks...................................................    93
    Mr. Carson...................................................    94
    Mr. Coffman..................................................    91
    Mr. Cooper...................................................    83
    Mr. Langevin.................................................    89
    Mr. Rogers...................................................    81
    Mr. Turner...................................................    93
 
                         [H.A.S.C. No. 113-44] 
  FISCAL YEAR 2014 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR 
                        MISSILE DEFENSE PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                            Washington, DC, Wednesday, May 8, 2013.
    The subcommittee met, pursuant to call, at 3:58 p.m., in 
room 2212, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. This hearing of the Armed Services Subcommittee 
on Strategic Forces will come to order. I want to thank the 
folks who are here to participate and other people in 
attendance.
    I apologize for the delay. We were told votes were going to 
start at 3, and obviously they didn't and they postponed it 
until 5 so it is just something we don't have control over.
    But in the interest of time, I am going to skip my opening 
statement and just submit it for the record and recognize the 
ranking member, Mr. Cooper, for any opening statement he may 
have.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 27.]
    Mr. Cooper. Thank you, Mr. Chairman. I have no opening 
statement and look forward to hearing from the witnesses.
    Mr. Rogers. Great.
    We have a great panel today. We have the Honorable Madelyn 
Creedon, Assistant Secretary of Defense for Global Strategic 
Affairs, Office of Secretary of Defense; Vice Admiral James 
Syring, U.S. Navy, Director, Missile Defense Agency; and the 
Honorable Michael Gilmore, Director, Operational Test and 
Evaluation, Office of Secretary of Defense.
    And we will start with Ms. Creedon. You are recognized for 
5 minutes.

 STATEMENT OF HON. MADELYN R. CREEDON, ASSISTANT SECRETARY OF 
 DEFENSE FOR GLOBAL STRATEGIC AFFAIRS, OFFICE OF THE SECRETARY 
                           OF DEFENSE

    Secretary Creedon. Thank you very much.
    Chairman Rogers, Ranking Member Cooper, and members of the 
subcommittee, thank you very much for the opportunity to 
testify today in support of the Department's fiscal year 2014 
budget request for missile defense. Today I would like to 
highlight the progress that we have had on some key policy 
priorities, particularly the recent decisions to strengthen 
homeland missile defense.
    The U.S. homeland is currently protected against potential 
limited ICBM [Intercontinental Ballistic Missile] attacks from 
both North Korea and Iran by the ground-based midcourse defense 
system, or GMD. As stated in the Ballistic Missile Defense 
Review, we are committed to maintaining an advantageous 
position vis-a-vis those threats. To do so requires continued 
improvement to the GMD system, including performance 
enhancements to the ground-based interceptors and the 
deployment of new sensors along with upgrades to the command 
and control network.
    To stay ahead of the threat, as we have said that we would 
do--in this case, the growing threat from North Korea--
President Obama recently decided to strengthen the U.S. 
homeland missile defense posture. This decision was announced 
by the Secretary on March 15th, and DOD [Department of Defense] 
is now in the process of implementing the decision. The 
decision also recognized the delay to the Standard Missile-3 
[Block] IIB program, largely as the result of funding cuts in 
prior years and the continuing resolution.
    As Secretary Hagel announced, DOD will add 14 interceptors 
to the GMD system for a total of 44 deployed GBIs [Ground-Based 
Interceptor] by 2017, and deploy a second TPY-2 [Transportable 
Radar Surveillance] radar to Japan. Deployment of the second 
radar to Japan will provide improved early warning and tracking 
of any missile launched from North Korea at the United States 
or Japan and will improve both homeland and regional defenses.
    As you know, we had planned to employ an SM-3 [Standard 
Missile-3] IIB interceptor for the defense of the United States 
from land-based sites in Europe, but the deployment schedule 
had been delayed to at least 2022, as I mentioned, due to the 
cuts. As a result, we decided to shift resources from this 
program to the GBI program to cover the cost of the additional 
14 GBIs and to the technology development line in the Missile 
Defense Agency to develop new advanced kill vehicles and 
booster technology.
    These decisions will allow us to improve our defenses 
against missiles from Iran sooner than we otherwise would have 
while also providing additional protection from the North 
Korean threat.
    To be clear, there is no money in the fiscal year 2014 
budget for the SM-3 IIB program, and we are no longer planning 
for phase four of the European Phased Adaptive Approach. As a 
result of much discussion, our allies understand and accept 
this decision and we have reinforced with them that our 
commitment to phases one through three of the EPAA [European 
Phased Adaptive Approach] remains ironclad.
    We have also worked with other regional allies and partners 
in the Asia-Pacific and the Middle East to improve cooperation 
and enhanced regional missile defenses. We have deployed a 
Terminal High-Altitude Area Defense, or THAAD, battery to Guam 
as a precautionary move to strengthen our defense posture 
against the growing North Korean regional ballistic missile 
threat. The deployment strengthens our defense capabilities for 
American forces and citizens in the U.S. territory of Guam.
    This deployment is an example of the benefit derived from 
our investments in mobile missile defense systems, which can be 
deployed worldwide as required.
    We also continue to work with our GCC [Gulf Cooperation 
Council] partners on regional missile defense cooperation, and 
of course, we continue to support Israel and its missile 
defense systems, including the Arrow co-development program.
    The President's budget for fiscal year 2014 reflects DOD's 
goals of retaining the flexibility to adjust and enhance our 
defenses as the threat and as technologies evolve. Our most 
vital security commitments--the defense of the United States 
and the protection of our allies and partners and our forces 
around the world--demand nothing less.
    Thank you, and I look forward to your questions.
    [The prepared statement of Secretary Creedon can be found 
in the Appendix on page 29.]
    Mr. Rogers. I thank you.
    And, Admiral Syring, you are recognized for up to 5 minutes 
to summarize your opening statement.

   STATEMENT OF VADM JAMES D. SYRING, USN, DIRECTOR, MISSILE 
                         DEFENSE AGENCY

    Admiral Syring. Thank you, sir.
    Good afternoon, Chairman Rogers, Ranking Member Cooper, 
distinguished members of the subcommittee. I appreciate the 
opportunity to testify before you for the first time as the 
director of the Missile Defense Agency.
    My priorities are to continue strong support of the 
warfighter, support what we have deployed, and deliver more 
capability to the combatant commanders.
    We are taking several steps over the next few years to 
implement Secretary Hagel's guidance to strengthen our homeland 
defense. First among those steps is returning the redesigned 
ground-based interceptor to flight testing later this year. The 
successful controlled flight test of the redesigned GBI earlier 
this year gives me great confidence we have addressed the 
causes of the end-game failure in the December 2010 test.
    Later this month we will demonstrate the improvements made 
to the GBI fleet over the last 4\1/2\ years in an intercept 
test of the first generation operational Exoatmospheric Kill 
Vehicle, the first such test since December of 2008. We are 
increasing the operational fleet of GBIs from 30 to 44 by 2017, 
and this will involve the relocation of GBIs and the 
refurbishment and reactivation of Missile Field 1 in Alaska.
    We have already begun to evaluate locations in the 
continental United States to determine a site suitable for 
possible future deployment of our homeland defense 
interceptors. Also, in order to provide more robust coverage 
for the homeland defense, this year we are working with our 
Japanese partners to deploy a second TPY-2 radar to Japan.
    We will continue to strengthen our regional defenses and 
funding to operate and sustain command and control management 
and communications and TPY-2 radar's fielded sites, and we will 
deliver more interceptors for THAAD and Aegis BMD. MDA [Missile 
Defense Agency] will continue to fund the upgrades to phase one 
of the European Phased Adaptive Approach, and we proceed on 
schedule and on budget to complete the Aegis Ashore sites in 
Romania by 2015 and Poland by 2018.
    Mr. Chairman, when I arrived at the Missile Defense Agency 
last November I was impressed with the organization and 
professionalism of the workforce. They are highly motivated and 
the very best in the world at what they do. It is an honor to 
serve with them every day.
    I ask that my written statement be accepted into the 
record, and I look forward to answering the committee's 
questions. Thank you.
    [The prepared statement of Admiral Syring can be found in 
the Appendix on page 40.]
    Mr. Rogers. Thank you, Admiral.
    Mr. Gilmore, you are recognized for up to 5 minutes to 
summarize your opening statement.

  STATEMENT OF HON. J. MICHAEL GILMORE, DIRECTOR, OPERATIONAL 
    TEST AND EVALUATION, OFFICE OF THE SECRETARY OF DEFENSE

    Dr. Gilmore. Given my responsibilities, I just simply want 
to emphasize in my opening statement that we have conducted and 
we are continuing to conduct tests that incorporate increasing 
amounts of operational realism and, therefore, complexity. An 
example of that is so-called FTI, or Flight Test Integrated-01 
that was conducted late last year. It involved the coordinated 
intercepts--near simultaneous intercepts by Aegis, THAAD, and 
Patriot of ballistic missiles and air-breathing threats.
    This was a very important test for a number of reasons, not 
the least of which because the combatant commands had extensive 
participation in this test and it was used to develop tactics, 
techniques, and procedures that are being applied in U.S. 
Central Command today.
    We are going to be conducting later this year the first 
full-blown operational test--multisystem operational test--FTO-
01 [Flight Test Operational-01], that will involve Aegis and 
the THAAD conducting--or performing layered defense.
    And Admiral Syring mentioned that we have conducted a test 
that is very promising this year with ground-based missile 
defense, indicates that the problems that caused the previous 
intercept failure probably have been corrected. In all 
likelihood we will be doing--that was with the Capability 
Enhancement II kill vehicle.
    In all likelihood, early in fiscal year 2014 there probably 
will be a decision to conduct an intercept test with the CE-II 
[Capability Enhancement II] kill vehicle. And we will be also 
conducting, probably later this month, an intercept test with 
the Capability Enhancement I kill vehicle, and that is 
important to do, as well, because the CE-I [Capability 
Enhancement I] kill vehicles will compose a majority of the 
fleet of GBIs for some time to come, and we need to continue to 
test those under realistic conditions, as well.
    The first intercept of a true ICBM target remains scheduled 
for the fourth quarter of fiscal year 2015. That is unchanged 
from the last three integrated master test plans. And we will 
be conducting increasingly complex and realistic tests of the 
ground-based missile defense system after this year, and 
including in fiscal year 2015, and after that point with ICBM 
targets, and we will be conducting salvos and multiple 
simultaneous engagements in order, again, to incorporate 
increasing amounts of operational realism in the tests.
    And it is only by doing that that we can give the combatant 
commanders and the National Command Authority the information 
they need to understand the performance of the system.
    And so, in summary I would simply say that I support very 
strongly the deliberate and rigorous test program that Admiral 
Syring is executing. It enables learning, and that learning is 
what is essential from testing. And in fact, I think the value 
of the tests--and this may sound somewhat counterintuitive--but 
the value of the tests is most demonstrated by the failures 
that we have found, you know, the failure modes that we have 
found by conducting those tests in Aegis and ground-based 
missile defense over the last couple of years, because those 
failures would not have been found if we didn't do that testing 
and relied solely on modeling and simulation.
    So thank you, and I will be happy to answer your questions.
    [The prepared statement of Dr. Gilmore can be found in the 
Appendix on page 64.]
    Mr. Rogers. I thank you. And I also want to, you know, take 
time and let you know how much I appreciate you all preparing 
for this hearing and being here. I know it takes a lot of time 
for you all to get ready for these things and it is appreciated 
by us.
    I will recognize myself first for questions.
    Admiral Syring, I was very pleased that the DOD has gone 
back to the Bush program of preparing to have 44 ground-based 
midcourse defense interceptors, but I am concerned about the--
what I am understanding is the plan for purchasing the 
additional 14 interceptors--2 per year for 7 years.
    Seems to me there would be a more efficient way to purchase 
those. Can you tell me what your thoughts are about how you 
might approach that differently?
    Admiral Syring. Yes, sir. I will answer the question with 
two parts. The first gate that I must pass through is a 
successful return to intercept flight later this year and--with 
the CE-II configuration, in terms of we have got to have that 
success; it underpins the entire strategy that we are now on, 
and the criticality of demonstrating ``fly-before-you-buy'' and 
not restarting delivery and integration of the current GBIs 
that are under contract is step one.
    Step two would be, once we are successful, as part of the 
next budget submit, to work with the Department and then with 
our Congress on some ideas to more efficiently buy those in 
terms of economic order quantity, long lead, potentially 
multiyear procurement authority based on the stability of what 
we are able to demonstrate through flight testing this year and 
next year.
    Mr. Rogers. I know you say you want to wait until after 
this test and you are forming next year's budget, but can't you 
go ahead and have some people be comparing those options and 
see which one, in the meantime, would be most practical and 
cost-saving so that you are not trying to start that up next 
year? I would hope you would be doing that----
    Admiral Syring. Yes, sir. We are doing that analysis now.
    Mr. Rogers. Great.
    Ms. Creedon, the President has cut the missile defense 
budget each and every year he has been in office. It isn't 
possible to merely cast blame on the Budget Control Act, as 
some of his steepest cuts came prior to that act, which, by the 
way, nowhere states that funds need to be cut out of our 
missile defenses. Have any of our combatant commanders reduced 
their interest in missile defense capabilities to justify these 
devastating cuts?
    Secretary Creedon. The majority of these cuts and 
reductions are really associated with programs that have been 
terminated over the course of time, so many of these programs, 
such as the airborne laser program, proved to be technically 
more challenging than initially thought. So the bulk of these 
reductions really is associated with these sort of high-risk 
types of programs and have not cut into the actual meat of the 
program.
    In fact, this year, having cut--having cancelled another 
one of these programs that were fairly high-risk, we have been 
able to fund an additional 14 GBIs and provide additional 
protection to the homeland. So yes, the combatant commanders 
continue to have high interest, but the support that we have 
been able to provide through the budgets that have been 
submitted are more than sufficient to both stay ahead of the 
threat and ensure that the U.S. homeland is adequately 
protected.
    Mr. Rogers. Well, it just seems inconsistent, when you look 
at the threat in North Korea and what is happening with Iran, 
and China's buildup of their regional capability, that we ought 
to not be spending less; if anything, should be enhancing our 
spending, particularly given the modernization challenges I 
have got.
    Now, you talked about the radar--I mean, the laser system. 
Have you all--and by that I mean the Administration--taken the 
view that directed energy is not an area we should be focused 
on?
    Secretary Creedon. Not at all. The decision was really with 
respect to the specific program, the airborne laser program. 
And in fact, there is a substantial research and development 
program associated with directed energy concepts currently 
funded in the missile defense budget.
    Mr. Rogers. I just think that is an area we really need 
to--and I have talked with Admiral Syring about that--I think 
we really need to focus a lot more on that.
    Also, Ms. Creedon, I am concerned about Secretary Kerry's 
comments to the Chinese while in that country. He said to the 
Chinese that if they would help rein in North Korea and their 
behavior that it could have a quid pro quo of withdrawal of 
some of the U.S. assets in the region.
    Hypothetically, if North Korea abandoned its missile and 
nuclear programs tomorrow would the U.S. withdraw its missile 
defense assets from Asia--for example, its two radar systems in 
Japan?
    Secretary Creedon. Obviously hypotheticals are always 
difficult, but if North Korea were to abandon everything, you 
know, completely denuclearize in a verifiable fashion, 
completely walk away from any of its long-range missile 
systems, it would, of course, have an impact on the U.S., but 
largely with respect to the U.S. homeland missile defense 
programs, which is really what is geared--what is what the 
North Korean threat is driving.
    So it is really the U.S.--so the regional concepts will 
continue to be there as--you know, those are a different 
aspect. Plus, the regional focus is also largely provided by 
assets that are mobile and transportable, so as I mentioned in 
my statement, these are the sorts of assets that we can move to 
wherever the threat is. So if the threat were in the Asia-
Pacific they would be there; if the threat were somewhere else 
we could move those assets there.
    But I would certainly welcome the denuclearization and the 
``demissilization,'' if that is a word, of North Korea.
    Mr. Rogers. Well, and I would, too. I am not holding my 
breath, but I would, too. But I would remind folks that China 
is still over there and it is a rough neighborhood, so we need 
to be mindful of that when we start--you know, when the--first 
of all, the Secretary can't make those decisions, you know. If 
he wants to withdraw anything it is going to take money and he 
has to get the Congress to approve it, so I would like not to 
have to read those kind of things in the paper, but I do want 
to remind everybody that it is not just North Korea in that 
neighborhood that is a problem.
    And with that, I will yield to the ranking member for any 
questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman. I know it is the job 
of the opposition position party to be critical of the 
Administration but I think it is also important to stress those 
areas where we agree as well as the areas of disagreement, and 
I noted in your opening statement that you submitted for the 
record that you largely agree with the Administration on their 
cancellation of the PTSS [Precision Tracking Space System] 
project and the SM-3 Block IIB missile.
    So those are significant cost savings for the MDA budget. 
Those are things that I know in your statement you said, well, 
maybe the money should be put back into other programs, but 
still, it is great to have this source of agreement on 
Administration policy on the cancellation of those two 
programs.
    I noted in Admiral Syring's testimony, toward the end on 
page 20, he said that the impact of sequestration on the 
program and workforce is significant, and I think that many 
folks in our military are feeling that in whatever budget they 
are supervising.
    You also go on to say that you plan to work with the 
Department to submit an above-threshold reprogramming request 
as part of the Department's larger request this year. I was 
wondering if the admiral could give us any idea of what some 
areas of reprogramming that you might be most interested in at 
this point.
    Admiral Syring. Sir, thank you for the question. First, 
there is an impact to the work I do and the workforce of 
sequestration as those cuts came down, and what we have done as 
part of our reprogramming request that will be submitted to the 
Department is offer a better way and better method to take some 
of those cuts to mitigate and keep my highest-priority issues 
fully funded and on schedule.
    Sir, I will share those details with you once I am allowed 
to submit them via the comptroller once they are approved, but 
I can assure you that what I have offered is a better use and 
better way to spread the cuts and preserve my top priorities 
for homeland regional and regional defense.
    Mr. Cooper. Well, I appreciate the seriousness with which 
you undertake your assignment, and there is a move afoot among 
my colleagues on the other side of the aisle to perhaps offer 
$250 million extra for ground-based interceptors for 
procurement and for MILCON [Military Construction], and it 
seems like the focus would be on the third site. And I was 
wondering if you really need additional funding or authority in 
fiscal year 2014 beyond the budget request, and if--would this 
money be able to be spent in this upcoming fiscal year?
    Admiral Syring. Sir, the first part of that answer is, as 
you know, I am conducting a very extensive siting study, as 
directed by the NDAA [National Defense Authorization Act], and 
that process is ongoing, and as those recommendations are 
briefed to the Department we will come forward with those 
recommendations by the end of the year.
    With that, I will be developing a contingency plan, which 
means analysis of the east coast site, and I call it more 
globally the CONUS [Continental United States] interceptor 
site, coupled with some studies and direction I have gotten 
from both General Kehler and General Jacoby to come back to 
them with a holistic approach to the BMDS [Ballistic Missile 
Defense System] architecture, given PTSS cancellation, given 
the IIB cancellation.
    So I would like to look at the CONUS interceptor site in 
that context and that larger kill chain end-to-end and provide 
recommendations across the board in terms of the benefit of the 
CONUS interceptor site and the benefit of other parts of our 
kill chain end-to-end, sir.
    Mr. Cooper. Thank you. And I would appreciate, not for this 
hearing, but if you could supply a classified answer to the 
question about our capability to provide shoot-look-shoot 
capability for coverage of the United States that would be very 
helpful.
    Admiral Syring. Sir.
    Mr. Cooper. Mr. Chairman, I yield back the balance of my 
time.
    Mr. Rogers. I thank the gentleman.
    Chair now recognizes the gentleman from South Carolina, Mr. 
Wilson, for 5 minutes.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you all for being here today, and we all 
appreciate your service for our country.
    Admiral Syring, the United States has had no boost-phase 
missile defense program since approximately 2009, when the 
Obama administration terminated the airborne laser, ABL, and 
kinetic energy interceptor, KEI. I noted in a recent 
unclassified slide that the Missile Defense Agency had no 
programs designed to defeat a missile in the boost phase.
    Sir, aren't there obvious advantages to engaging a missile 
in this phase of the flight at the beginning, such as 
precountermeasure and decoy release?
    Admiral Syring. Sir, the boost-phase capability has been 
long chronicled on the benefit that it might give. The problem 
that we have had in terms of fielding boost-phase capability is 
getting close enough to the threat, and certainly the SM-3 IIB 
program was going to be a first-shot capability against the 
threat, but again, sir, the predication of getting a first shot 
was all based on what velocity could we achieve with that 
missile, and technologically it was too challenging and too 
costly and too long, in terms of the schedule, for us to get 
there.
    Mr. Wilson. And getting to know the location of the threat 
with the satellite technology we have, with the other 
technology and the intelligence, hopefully, we have, I would 
hope that we would--could be pretty precise on where a 
potential attack could come. Do you feel that way, or----
    Admiral Syring. Sir, we have coverage against a limited 
ICBM attack against Iran and North Korea, and I will talk more 
about that as the questions come. But we do have a good 
capability in terms of detection of launch, and then queuing of 
the track to the proper systems within the BMDS. It is very 
important and we do have that overhead and organic sensor 
coverage today.
    Mr. Wilson. Good. Well, I certainly want to reassure the 
American people we are--have extraordinary monitoring 
capability. Shouldn't we take a look at what options are 
possible for boost-phase missile defense?
    Admiral Syring. Sir, as part of the studies that I am doing 
for the two combatant commanders where I get my requirements 
for we are looking at what technology is available, boost-phase 
and even left-of-launch, and I will leave it at that in this 
forum.
    Mr. Wilson. Thank you very much.
    And for Dr. Gilmore and Admiral Syring, given the 
intelligence community's current assessment of the developing 
threats from North Korea and Iran, does the current ground-
based missile defense plan still meet requirements? What 
changes should be made, if any? Will we see any proposed 
changes in the hedging strategy?
    Admiral Syring. Sir, was that for me or Ms. Creedon?
    Mr. Wilson. Actually, for you and Dr. Gilmore.
    Dr. Gilmore. Do you want to go first?
    Admiral Syring. Go ahead, sir.
    Mr. Wilson. But I sure appreciate the Secretary is here. 
Thank you. There is life after serving on Capitol Hill.
    Dr. Gilmore. I will let Admiral Syring address the question 
of what changes might be made--you know, might be necessary to 
the acquisition program. I try to stay out of recommending 
changes to acquisition programs; I just provide test 
information to the people who make those decisions, otherwise 
they might think that I am trying to grind an axe.
    From the standpoint of the test program, as I described in 
my opening statement, the test program for ground-based missile 
defense is going to be incorporating increasing operational 
realism, including multiple simultaneous engagements, salvo 
engagements, and demonstrating performance against 
countermeasures. And so, in that regard, I think that the test 
program is structured to deal with the evolving threat.
    People can have debates about when certain kinds of 
countermeasure might be available to either the North Koreans 
or the Iranians, assuming that they--you know, the Iranians 
developed an ICBM. But, you know, my understanding of those 
threat projections and the uncertainties that they incorporate 
is that the test program is appropriately paced in that regard, 
so I think I will just leave it at that.
    Mr. Wilson. And, Admiral, would you----
    Admiral Syring. Sir, as far as changes to the strategy, I 
wouldn't call them changes; I would call them augmentation 
details that need to be worked in terms of, given the 
cancellation of PTSS and IIB, which you will hear from me and 
what I have shared with several members, is our need to focus 
on discrimination capability. And to that I mean the sensor 
network, and to that I mean the dual phenomenology of both 
radar energy and I.R. energy. And in those--in both of those 
spectrums, sir, we need to focus and have started to focus, in 
terms of what that brings to the fight in terms of providing 
the combatant commanders a better use of their existing 
resources.
    Mr. Wilson. Thank you very much.
    Mr. Rogers. Gentleman's time is expired.
    Chair now recognizes the gentleman from California, Mr. 
Garamendi, for 5 minutes.
    Mr. Garamendi. Thank you, Mr. Chairman.
    And some discussion has already taken place concerning the 
east coast missile site, and the question of whether--first, I 
guess, to Admiral, if you could tell us the status of the 
current study that you have under way as a result of last 
year's NDAA--what is the status of it? What are you studying?
    Admiral Syring. Sir, we looked at a--are looking at a wide 
range of possible locations for the CONUS interceptor site 
based on criteria that includes proximity to population areas, 
booster drop zone areas, DOD-controlled land, and performance, 
frankly, in terms of what--where is our best location to 
maximize our opportunity against the threat. Literally hundreds 
of sites have been considered, and through a ranking and down-
select criteria, that process is ongoing through MDA and then 
the Department and then, you know, eventually results will be 
announced and further studies will happen at those locations 
that we neck down to.
    But that process is ongoing and very active today.
    Mr. Garamendi. Could you give us some sense of timeframe as 
to when the study would narrow it down to two or three 
different sites and then down to one site?
    Admiral Syring. The rough timeframe that I am working to is 
towards the end of the summer, maybe as late as September.
    Mr. Garamendi. That you will have a preferred site at that 
time?
    Admiral Syring. That I will have a preferred three sites at 
that time to study even further before the end of the year.
    Mr. Garamendi. And so by the end of the year you will have 
selected a site?
    Admiral Syring. I will have recommendations. It won't be my 
selection. There would be a recommendation to the Department, 
which will ultimately provide the recommendation to Congress.
    Mr. Garamendi. Okay. And then, assuming that a site has 
been selected--or recommended and Congress takes it up--that 
will actually be next year's NDAA that it would be taken up?
    Admiral Syring. Potentially, sir, yes.
    Mr. Garamendi. So the construction at that site is probably 
another 2 or 3 years off?
    Admiral Syring. The timetable that we are working to is 
once we decide on a site by the end of this calendar year, 18 
to 24 months for an environmental impact study on that site and 
then site construction and subsequent additional GBI 
procurements if so dictated by the Department and the combatant 
commander
requirement.
    Mr. Garamendi. Okay. So we are looking at a situation where 
additional expenditures beyond what is already allocated in the 
2013 NDAA and continued studies and site environmental work in 
the 2014 NDAA would be sufficient to meet your schedule?
    Admiral Syring. The resources that are required to do this 
study--the siting studies this year and then the environmental 
impact study have been part and are the 2014 requirement is 
part of my budget request in the reprogramming, actually, since 
that was a late requirement. So those funds will be covered, 
but it is only study at this point.
    Mr. Garamendi. I promised my friend next to us that I 
wouldn't get into another brawl with him on an east coast 
missile defense site so I am just trying to lay out some 
information that will help us all work through the scheduling 
of money and whether we tie up a significant amount of money in 
a--ahead of what it would actually be required--of when it 
would actually be required.
    So I am going to put a direct question to you and hopefully 
not engage too deeply with my colleague over here. Would an 
additional $250 million in the 2014 NDAA be of use to you in 
the process that you have under way?
    Admiral Syring. Not at this time, sir.
    Mr. Garamendi. Thank you.
    I will yield back my time.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from Florida, Mr. 
Nugent, for 5 minutes.
    Mr. Nugent. Thank you, Mr. Chairman.
    And I want to thank the panel for being here today.
    But to the admiral, I want to thank you. A number of 
members from this committee, you know, sent you a letter urging 
that the MDA be--refocus attention on directed energy, 
particularly as it relates to challenges with our missile--or 
our adversaries' missiles capabilities. And first I want to 
thank you for the response, and I am encouraged by your plans 
to develop a next-generation airborne laser system.
    But the directed energy budget is so relatively small, and 
so I am trying to figure out--you know, the Army and Navy are 
being very aggressive, I think, on directed energy capabilities 
to intercept close-in threats on ground forces and ships, but 
intercepting ballistic missiles obviously is a greater 
challenge. So I am trying to figure out, do we have adequate 
resources to allow us to move to that next level and get out of 
the--from the laboratory stage to actually get to where we 
could deploy?
    Admiral Syring. Sir, it is a fair question. As you know, we 
have two efforts ongoing today at Lawrence Livermore and out at 
MIT [Massachusetts Institute of Technology] Lincoln Labs, and 
both show great promise.
    And we will proceed to their first knowledge point in terms 
of 10 kilowatts, 20 kilowatts, 30 kilowatts over the course of 
the next 2 to 3 to 4 years. And, sir, as we have refocused our 
efforts, those demonstrations are critically important to prove 
the technology and our ability to scale up in power.
    Equally important is the platform, and we have talked and I 
have talked to several of the members about a demonstration on 
a UAV [Unmanned Aerial Vehicle] in several years and the 
importance of being above the cloud layer to show that infrared 
and it is, in particular, directed energy is a benefit to the 
discrimination problem that I face and the combatant commanders 
face. And to date, the progress has been promising. As part of 
the studies that I am doing for both combatant commanders we 
are looking at this, as I have mentioned to a couple of 
congressmen in private, to understand the allocation of money, 
because right now we are--because we are spending less than $50 
million a year on this at this point, and I have been asked by 
several members to come back and give them my recommendation on 
is that enough, are we focused in the right areas, are we 
focused too slowly or too quickly?
    Mr. Nugent. And I agree with those members, particularly 
when you look at the ability--if we could develop a consistent 
system it is certainly a lot less expensive to do the test at 
that point than using a kinetic source--you know, another 
missile to try to shoot down. So what do we need to do to help 
resource you, or is $50 million enough? I mean, it doesn't 
sound like it would be, but----
    Admiral Syring. Sir, we are still in the scale-up 
demonstration phase at this point to prove the two promising 
technologies that we are working on--the DPAL [Diode Pumped 
Alkali Laser] system out at Livermore and then the fiber 
combined laser at MIT. And as I gain knowledge--and we are only 
going to pass through the first knowledge point here in the 
next 18 to 24 months----
    Mr. Nugent. That was kind of my question: When do you 
expect to see some kind of actual testing?
    Admiral Syring. The first knowledge point of that system 
will be in fiscal year 2015 to demonstrate it at a 30-kilowatt 
level. And then, sir, we can make decisions based on where we 
are with the physics and the technology, and then more 
importantly, the packaging and the scaling of that technology 
to go on a platform, which is equally important.
    Mr. Nugent. And I think the question I heard one of my 
colleagues ask--and this is a question I think I tried to 
allude to earlier is, with additional funds could you move that 
date up, because obviously if you could move that date closer 
to where we are today it becomes more cost-effective once you 
do that, obviously, for continuing testing, and would that 
help? I mean, or is it--money isn't the issue, it is technology 
or time, I am not sure which?
    Admiral Syring. Certainly more people on each concept, in 
terms of the number that we have today based on the budget 
reductions that have happened over the last couple years, need 
to be looked at and will be assessed by myself over the next 
few months.
    Mr. Nugent. So is the answer more money could hire more 
researchers to get to a usable platform sooner?
    Admiral Syring. Sir, I need----
    Mr. Nugent. I know it is a tough question----
    Admiral Syring. I need to study that and get back to you.
    Mr. Nugent. If you would, please. Thank you.
    And I yield back.
    Mr. Rogers. Gentleman's time is expired.
    The Chair now recognizes the gentlelady from California, 
Ms. Sanchez, for 5 minutes.
    Ms. Sanchez. Thank you, Mr. Chair.
    Okay, gentlemen. I want to talk about that National 
Research Council's report--the 2012 report--comparing boost-
phase ballistic missile defense to other approaches identified. 
It identified six fundamental principles or precepts of a cost-
effective ballistic missile defense.
    I want to quote this: ``It found the current GMD system 
deficient with respect to all of these principles.'' Because of 
these problems, the NRC [National Research Council] recommended 
an entirely new ground-based missile defense system with new 
interceptors, radars, and concept of operations.
    So why is the Administration recommending the purchase of 
14 more ground-based interceptors when the NRC found the 
current system so lacking?
    Admiral Syring. Ma'am, is that for me?
    Ms. Sanchez. It is for whoever wants to answer that.
    Admiral Syring. Ma'am, the current system we have has had a 
history--the last two intercepts have been failures--FTG 
[Flight Test Ground-Based Interceptor]-06 and FTG-06A. One was 
a production quality issue and one was more of a design issue.
    We successfully demonstrated the design correction for the 
last intercept test in a controlled flight in January. It was 
not an intercept flight but we put it through very aggressive 
maneuvers in space to prove that the correction in isolation 
mechanism of the navigation unit had, indeed, been isolated to 
perform as designed in an intercept test.
    And based on the analysis of that data that we got back, if 
we had flown at target it would have been an intercept. So that 
gives me great confidence that the correction is in place and 
will work.
    That said, I have still got to demonstrate an intercept 
test later this year, and as I said previously, it is 
imperative that before we start buying more GBIs in fiscal year 
2016 that I come forward with that success and prove that, yes, 
the new system is, indeed, corrected.
    As you know, the--there is the older version of 
interceptors that are in the ground today that have 
successfully flown three of three times, and that those 
continue to be at the forefront of the combatant commanders' 
stable of missiles to--of interceptors to use in case of 
conflict.
    That said, we are proceeding with fly-before-you-buy. I am 
not making any production decisions or spending any money on 
new GBIs until we have proven that. I have stopped taking 
delivery of GBIs; I have stopped taking delivery of EKVs 
[Exoatmospheric Kill Vehicle] that are either on the old 
contract or the new contract until we have corrected this 
problem. It underlines everything we are doing.
    Ms. Sanchez. That is what I wanted to hear.
    So saying it a different way, because we had Secretary 
Hagel make a statement that complete confidence in the GBI 
interceptors was a prerequisite to deployment of these 14 
additional GBI interceptors, specifically, which flight or 
intercept tests must be successfully conducted and what 
capabilities must be demonstrated in order to meet Secretary 
Hagel's stated requirement?
    Admiral Syring. Yes, ma'am. That intercept test today is 
called the CE-II--Capability Enhancement II--intercept test 
that will be of the vintage of the GBIs that we will procure 
starting in fiscal year 2016.
    Ms. Sanchez. So the new GBIs?
    Admiral Syring. The new GBI correction will be intercept-
tested in the first quarter of fiscal year 2014--later this 
calendar year.
    Ms. Sanchez. And that is the only test that you think needs 
to be passed in order for us to feel confident enough to buy 
more GBIs?
    Admiral Syring. There will be an additional intercept test 
that is in the budget today for later in fiscal year 2014, and 
my guidance in terms of the development of the test plan for 
Dr. Gilmore has been at least one intercept test per year.
    Ms. Sanchez. Okay, so----
    Admiral Syring. And I can make some very informed decisions 
after this intercept test on restarting integration and then 
informing the new production buy.
    Ms. Sanchez. So the CE-II capability--and you had some 
other names associated with that test--for the new GBIs--you 
think that if you do that one test that you can go ahead and 
start purchasing the new GBIs? Or, then you said you also have 
another test in fiscal year 2014 that would give you more 
information. So are you telling me you want to buy those 14 
after this test in the fall or are you telling me you are going 
to wait until fiscal year 2014 test--the second one--to see if 
both of those are good?
    Admiral Syring. Ma'am, the problem that we had with the CE-
II test back in December of 2010 was very isolated to the 
navigation unit and isolated in a sense that we understood 
through the data and through ground testing and everything else 
post-test that it was a very isolated component that is very 
explainable and repeatable in the ground testing that we did. 
We proved, through both of those--especially the December 2010 
flight test--success at every stage of flight of the new 
interceptor.
    Ms. Sanchez. Thank you, Mr. Chairman. I just wanted to get 
that for the record because I heard two under Hagel's--the 
question I said about Hagel, and now I hear one from the other 
side. So I think it needs further discussion outside of this 
hearing. Thank you.
    Mr. Rogers. I thank the gentlelady.
    The Chair now recognizes the gentleman from Alabama, Mr. 
Brooks, for 5 minutes.
    Mr. Brooks. Thank you, Mr. Chairman.
    Admiral Syring, do you possess any delegated authority by 
the Secretary of Defense over foreign disclosures of classified 
United States missile defense technology?
    Admiral Syring. I am the classification authority for the 
ballistic missile defense system.
    Mr. Brooks. And have you been asked, since assuming your 
position, to provide insight about disclosure to Russia of 
United States missile defense technology?
    Admiral Syring. I have not been asked to declassify 
anything in terms of disclosing information to Russia.
    Mr. Brooks. Have you been asked for your insight?
    Admiral Syring. I have not been asked for my insight other 
than questions that have been asked and are asked routinely on 
what is classified and what is not.
    Mr. Brooks. So as best you can recall, you have had no 
discussions with anyone, for example, in the Office of the 
Secretary of Defense, about declassification of any of our 
missile defense technology with respect to Russia?
    Admiral Syring. I have had discussions with the Secretary 
of Defense policy group on what information is classified and 
what is not classified, and that guidance--that information, in 
terms of what I have provided, has been adhered to 100 percent.
    Mr. Brooks. I am not sure that you are answering the 
question, or maybe I am not phrasing the question properly. Let 
me give it another crack.
    Have you had any discussions not about what information is 
classified or classified, but instead, have you had any 
discussions about whether any classified information should 
become declassified with respect to our missile defense 
technology in Russia?
    Admiral Syring. Yes, sir. There has been a discussion on 
the capability of the current missiles we are building and the 
velocity at burnout.
    Mr. Brooks. Who were those discussions with?
    Admiral Syring. Sir, they have been discussions within OSD 
policy up to Dr. Miller.
    Mr. Brooks. Another question for you, Admiral Syring. If 
you were given complete authority to reprogram funding as you 
saw best in order to enhance America's national security, where 
would you focus your resources and overall agency program 
attention?
    Admiral Syring. My number one priority, sir, would be to 
focus on the discrimination capability of our system.
    Mr. Brooks. Would there be any other reprogramming of funds 
from one aspect of what you do to any other?
    Admiral Syring. I am currently assessing that and it may be 
possible.
    Mr. Brooks. The MDA objective simulation framework, or OSF, 
contract was awarded competitively in fiscal year 2012 and was 
designed to provide flexible and robust solutions to assess the 
United States' ability to fully protect the homeland as well as 
provide the damage denial role vital to the success of our 
military commanders' missions abroad. However, the program has 
been subjected to a continuing series of budget reductions, 
restructuring, and program slippages which have undercut the 
overall OSF program objectives.
    Now, I have been informed that there have been an 
additional cut of $2.5 million that is requiring an immediate 
layoff of key technical personnel whose talents are vital to 
the continued success of OSF. Would you please provide me a 
thorough review of the history and future funding and plans of 
the OSF contract at the earliest opportunity? And that can be 
in writing if you are not able to give it in the little bit of 
time that we have left.
    Admiral Syring. Yes, sir.
    Mr. Brooks. Thank you.
    Mr. Chairman, I yield back.
    Mr. Rogers. Thank the gentleman.
    Chair now recognizes Mr. Langevin, for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank the panel for your testimony today. Some of 
my questions have been addressed.
    I wanted to circle back, though, and Mr. Nugent has talked 
about--and questioned about directed energy, and, Admiral, I 
just had to give you a further opportunity to talk on this 
topic. How does the fiscal year 2014 budget request preserve 
the investments made in directed energy programs so far and 
what role overall does MDA see for DE [Directed Energy] 
capabilities in the future? And I am very interested in 
specifics and, you know, how we integrate some of these things 
into our missile defense capabilities in the long run.
    Admiral Syring. Yes, sir. The funding preserves us on a 
path to the scheduled demonstration in fiscal year 2015 of the 
two systems that I spoke about east and west, at MIT and 
Lawrence Livermore.
    More importantly, what I see the value of directed energy 
to be is to help with the very complex debris scenes and 
countermeasures that we see coming in the future, in terms of 
having that capability for discrimination in the kill chain. 
And I view that as a very--one of my highest priorities in 
terms of developing that phenomenology, and the systems that we 
are demonstrating east and west are critical to the confidence 
of our ability to one, prove the technology, and then two, to 
package and put on a platform and demonstration first and then 
consider even smaller payloads in space, potentially.
    Mr. Langevin. Thank you. Well, I think that these 
investments are important and I hope we are doing our best to 
preserve them and, you know, continue to see them aggressively 
develop and hope we integrate it as soon as possible.
    Let me turn to the TPY-2 radar issue. In fiscal year 2013 
NDAA funding for an additional TYP-2 radar was included to meet 
growing COCOM [Combatant Command] demands for missile defense. 
This demand has grown ever since passage of that legislation.
    How does MDA intend to continue TPY-2 production? And in 
the area of RDT&E [Research, Development, Test, and 
Evaluation], what would you identify as your top three to four 
priorities?
    Admiral Syring. The funds provided in fiscal year 2013 for 
the TPY-2 radar, given--and my answer to sequestration stands 
in terms--there was some impact there in terms of how that cut 
was taken, but given my reprogram request that is going to go 
through the Congress, I am going to find or have proposed a 
method to fully fund that radar and buy that radar in 2013, in 
terms of what I said to maintain my top priorities intact. So 
that is step one.
    The future of TPY-2s in terms of the forward-based mode 
will be driven by the combatant commanders and their 
requirements for TPY-2s in theater. As you know, we are going 
to--we are working with the government of Japan and our defense 
partners in Japan to locate a second TPY-2 to Japan, and that 
is going to be very, very helpful.
    One of the things that I am working with the Army on is, do 
we need a seventh THAAD battery, for example, and how can a 
TPY-2 go with that THAAD battery, and that will be one of the 
items that I consider as part of my 2015 budget request working 
with the Army, as there is a standing requirement for nine 
THAAD batteries today.
    My top priorities in R&D--and I will just repeat this 
again, sir--is discrimination and development of the 
discrimination capability, the prove--the continued testing and 
reliability improvements that are critical for the GMD system 
and the current GBIs. We have incorporated over 20--I want to 
say 24 or 25 improvements to the current CE-I fleet that I will 
demonstrate in flight within the next month, and that--those 
improvements and those continued--the continued improvements of 
the current fleet is part of my R&D request, as well.
    So discrimination, GBI testing and reliability, and then 
finally, we are working very hard on the Aegis front in the 
region to continue to upgrade that capability to meet the 
requirements of EPAA phase two and three.
    Mr. Langevin. Thank you, Admiral.
    Mr. Chairman, I yield back.
    Mr. Rogers. Thank the gentleman.
    Chair now recognizes the gentleman from Colorado, Mr. 
Lamborn, for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Admiral Syring, I was concerned about something you alluded 
to earlier. I hadn't meant to ask about this but I must.
    Given the development of the Iranian threat, maybe as early 
as 2015, to have intercontinental capability, to see that the 
eastern site is going to have to go through a 1\1/2\- to 2-year 
environmental impact statement really bothers me because that 
puts us past that. Isn't it allowable under the law for the 
President to waive the National Environmental Policy Act for 
national security purposes, especially if the site development 
ends up on an existing military
facility?
    Admiral Syring. Sir, I am not in the details of what we 
could waive or what we could not waive. My answer on 18 to 24 
months was based on the current law and current statute and, 
frankly, the time period that it has taken us to do past EISs 
[Environmental Impact Statement].
    Mr. Lamborn. Well, Admiral, current law and current statute 
allows for the President to waive an environmental impact 
statement when we are trying to stave off a threat to our 
homeland, and I would hope that your advice to him would be to 
seek that waiver.
    Admiral Syring. Sir.
    Mr. Lamborn. Secondly, let me ask about a budget line on 
the information that we have--sheet that we have here. Israeli 
cooperative programs Arrow and David's Sling is going from $268 
million to a request of $96 million. Why the big dropoff there?
    Admiral Syring. Sir, we--just the stage that we are and in 
those programs, and we have worked these numbers cooperatively 
with Israel. It is the requirement that we see in 2014.
    Mr. Lamborn. Okay, thank you.
    Next question I would like to ask you is could you explain 
the priorities that you have on the kill vehicle technology 
that you would like to develop? I would just like to get a 
little better sense of what--where you are coming from on that.
    Admiral Syring. Yes, sir. The kill vehicle technology is 
1990s technology, and in terms of when that design was complete 
and the components that we have in it, with very little time 
spent or thought at the time for manufacturing, producibility, 
and sustainability.
    The technology has moved, obviously, 20 years since then 
and that there is components within the current kill vehicle 
that we would like to target near-term for upgrade--the 
Inertial Measurement Unit focal plane array, some other areas 
that might improve with--improve the inherent organic 
discrimination capability of the EKV. The goodness--and there 
is great goodness in terms of some of the technology that has 
been developed as part of the Aegis kinetic warhead, and we 
think that there is some synergy between the two in terms of 
components that could be scaled and used in the same way, 
obviously, with the same hit-to-kill mission that could be of 
benefit to the EKV.
    Mr. Lamborn. Okay. And lastly, can you explain the 
difference in the overall goals that you have before you of 
capability development versus technology development? I would 
like to hear your thoughts on that.
    Admiral Syring. The biggest technology development that I 
see is exactly what I have said in terms of discrimination, 
radar-sensing algorithms, infrared directed energy. There is 
where I see the technology investment for MDA being in the 
future.
    The balance will be continuing to field capability to the 
warfighter, in terms of THAAD batteries continue, Aegis BMD 
upgrades continue, the SM-3 1B missile deliveries are ramping 
up this year, and providing that much-needed capacity to the 
warfighter.
    So I agree with you, it is a balance between keeping the 
future, you know, keeping the future in front of us and ahead 
of the threat versus providing the needed capacity to the 
warfighter. And certainly as I study that with General Jacoby 
and General Kehler this year we are looking at that exact 
problem.
    Mr. Lamborn. Okay. Thank you very much, and I appreciate 
the work that you do.
    Mr. Chairman, I yield back.
    Mr. Rogers. Chair now recognizes the gentleman from 
Arizona, Mr. Franks, for 5 minutes.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank all of you for being here, for the investment of 
your lives in the cause of freedom.
    Admiral Syring, I know that you have emphasized 
significantly discrimination related to our missile defense 
capability, and I know something that is potentially related to 
that, at least contingently related to it, is the need to 
improve the kill assessment capability of our GMD system. So I 
am going to ask you about four questions in a row here, what I 
usually don't do, but it gives you an opportunity to emphasize 
the areas that you think is most important for us to consider.
    Are you, first of all, and the commander of NORTHCOM [U.S. 
Northern Command] and the commander of STRATCOM [U.S. Strategic 
Command], close to any kind of an agreement on the way ahead to 
improve that capability--that kill assessment capability? How 
feasible is it to leverage those current capabilities? To what 
extent are new capabilities required? And is it feasible that 
the U.S. should significantly enhance this capability by the 
end of this decade?
    Admiral Syring. Sir, kill assessment is a very important 
capability that we are working on, and I do have direction from 
the commander of NORTHCOM on his priorities for improving kill 
assessment and other--frankly, other parts of what I call the 
assessment chain, in terms of how do we--where do we need to 
invest, what can we do near-term and what can we do maybe 
further-term to better inform his shot doctrine?
    And it is just not kill assessment; there are other parts 
of that problem that need to be considered. There is EKV 
discrimination capability, there is radar-sensing capability, 
there is IR [Infrared]. There is a whole list of things that 
would give him more information for that assessment.
    Underlying all this, sir, is the improvement of the GBI 
reliability and giving him confidence that we--each interceptor 
is providing, indeed, the reliability that he counts on. Yes, I 
am in very near-term discussions with him on that issue.
    Mr. Franks. Well let me shift gears, then, and ask you, 
were you satisfied that we had sufficient missiles available to 
PACOM [U.S. Pacific Command] during this recent escalation in 
tensions and the threat of medium-range rocket launches by 
North Korea? You know, I guess I am concerned that a lot of our 
missiles were either at stockpiles at home or in other 
theaters, and are we doing everything that we can to allocate 
our resources in the best way
possible?
    Admiral Syring. Sir, we had coverage to protect the 
homeland--sufficient coverage to protect the homeland across 
all of our systems--the Aegis ships that were on station, the 
GMD system that was on alert--is on alert, and then the THAAD 
battery, as you know, that went to Guam, and that capability 
that we provided in very short order.
    Mr. Franks. Well, touching briefly on the old third site--
not the east coast site, but the site that was once cancelled 
in Poland--and I am not sure exactly how much you can say, but 
given some of the shortcomings of the potential IIB missile to 
be able to really do the job there, how much impact do you 
think this has had on Iran's calculus or our ability to provide 
redundant homeland protection by not having GBIs rather than, 
at this point, not even the potential of IIBs in Poland?
    Admiral Syring. Sir, if I can, can I just speak to the IIB?
    Mr. Franks. Yes, sir.
    Admiral Syring. Because I was not here back in 2009 and I 
would like to keep my answer to the IIB, and I referred to this 
earlier. The technology challenge to get to a velocity of that 
missile in the time and budget that we had was insurmountable, 
and there are many other issues that I have talked to you 
about, but that--those three reasons alone--the technical 
challenge, the cost, and the schedule--would have driven our 
ability to field the IIB to 2022 or beyond, and from a schedule 
standpoint, sir, that wasn't going to cut it.
    So the President and Secretary Hagel made the decision to 
focus on North Korea first, which we are doing with the 
additional interceptors west in Greely, and then the second 
part of that focus will be what do we need to do as Iran 
continues to progress. And, sir, we are studying that in great 
detail with the combatant commanders.
    Mr. Franks. Well, so you know, I think you have made every 
decision correctly; there is no criticism here aimed in your 
direction at all. I am somewhat concerned--maybe this is--I 
suppose this is a real intellectual ``I told you so'' kind of 
thing related to the GBIs that were once planned there, which 
would have had sufficient acceleration and speed to be able to 
give us that redundant protection that now we will not have, 
and it will not have the ability to change the Iranian 
calculus, as well.
    So, but anyway, glad you are on the job.
    Thank you all.
    And thank you, Mr. Chairman.
    Mr. Rogers. Thank the gentleman.
    Chair now recognizes the gentleman from Ohio, Mr. Turner, 
for 5 minutes.
    Mr. Turner. Thank you, Mr. Chairman.
    Admiral Syring, do you agree with NORTHCOM Commander Jacoby 
that, ``What a third site gives me, whether it is on the east 
coast or in an alternate location, would be increased battle 
space. That means increased opportunity for me to engage 
threats from either Iran or North Korea.'' Do you agree with 
that?
    Admiral Syring. Yes.
    Mr. Turner. Thank you.
    I think that is incredibly important as we look to the 
possibility of an east coast site, which, of course, would give 
us that third site option. I was the author of the amendment in 
the NDAA of last year to establish the east coast site. The 
numbers that we have been working with--$100 million last year 
in the NDAA and $232 million looking at the cost to build the 
site in 6 years--have been based upon what General Reilly had 
told us as we look to, you know, moving forward with this site.
    Ms. Creedon, I have a great deal of respect for you but you 
have to admit at this point that the Administration's missile 
defense policies are in absolute shambles. I have a letter 
dated April 17th to Barack Obama which I would like the chair 
to put into the record that acknowledges that this policy that 
the Administration has established of undoing and then redoing 
the Bush administration's Alaska site is completely 
insufficient as a basis for protecting the United States, and I 
want to do a real quick drive-through of where we are and why 
we are.
    [The information referred to can be found in the Appendix 
on page 75.]
    Mr. Turner. The Bush administration had planned by 2013 
that the Alaska site would be completed and that there would be 
forward-based missiles in Europe, including a radar, and that 
would be a third site to provide to the doctrine of shoot-look-
shoot, which General Jacoby and Admiral Syring just said is 
preferable for protecting the United States. In the context of 
the national intelligence estimate of the public statements of 
our intelligence community that the threat from Iran and North 
Korea to the continental United States from an ICBM attack with 
a nuclear weapon could be as early as 2015, the Administration 
came and cancelled the third site in Europe, significantly 
reduced the site in Alaska, and said, contrary to all 
intelligence estimates that were public and that we were 
receiving, that the threat was slow to emerge so we could wait 
until 2020 to protect the homeland with a third site, paraded 
out the phased adaptive approach that had a fourth phase that 
would include protection of the United States by 2020, one that 
I opposed because I believe, A, it was going to be late--there 
will be a gap between the 2015, what the intelligence community 
was saying, and 2020; and two, that it looked like it was not 
going to be achievable because it was a paper system, not 
something that had yet been completed.
    We now see ourselves with, of course, that fourth system 
being cancelled--that fourth phase being cancelled because it 
would have slipped past 2020 and was not technically feasible. 
The Administration has now gone back and said we will complete 
the Alaska site that the Bush administration would have had 
completed by 2013 with a timeframe of 2017.
    But where we are now is that North Korea has moved a 
missile to a launch pad that our intelligence community says 
could be an ICBM and could have a nuclear weapon on top of it. 
And now the Administration is saying that we are going to 
complete Alaska and currently isn't embracing an east coast 
site, which would provide what Admiral Syring just said and 
what Commander Jacoby said is preferable of having a third site 
for shoot-look-shoot.
    Now, the Obama administration had indicated in its missile 
defense strategy that there needed, in addition to the phased 
adaptive approach, there needed to be a hedge if the threat was 
quicker to emerge than this Administration's analysis of 2020. 
Now, I assure you that no one in Congress believed that that 
hedge was going to be less protection from the homeland; 
everyone believed that the hedge would be an increased 
protection.
    But now we have it the threat has been quicker to emerge, 
North Korea actually threatening the United States, and you 
have cancelled the fourth phase of the phased adaptive 
approach, and you are opposing the east coast missile defense 
site, and you have cancelled the European forward-based Bush 
administration missiles, and we have no hedge.
    Now, Ms. Creedon, it would have been laughable if the 
Administration had come in 5 years ago with this plan and said 
it was going to be sufficient to protect the United States, and 
now, quite frankly, I believe it is just straight-up dangerous. 
And my letter to the President of the United States is saying 
that the current plan for this Administration to just build out 
Alaska doesn't even meet the Obama administration's own 
standards.
    So what is coming next, Ms. Creedon? Are you going to 
actually dedicate yourself to expanding our missile defense 
system to protect the homeland?
    Secretary Creedon. Yes, sir. That is exactly what the 
decision to go to the additional 14 GBIs is----
    Mr. Turner. No, no, no, wait. That is not sufficient. As 
you know, that was scheduled already under the Bush 
administration plan to be completed. Saying you are going to go 
now back and complete what they would have had in the ground by 
2013 is not expansion.
    What are you going to do to give the third site that 
Admiral Syring says that we need and that Commander Jacoby says 
that we need for shoot-look-shoot, which has been the doctrine 
while all these threats have been emerging? I mean, we are now 
here, the threats are knocking on our door, and now you are 
dismantling what would be the important doctrine that we need.
    Secretary Creedon. Let me roll back just a little bit in 
time just to today and reference back to the discussion that we 
had earlier about the test program and the challenges that had 
been associated with the GBIs that were in Alaska, so part of 
the time that we bought by keeping the hedge intact, completing 
the missile fields, not doing away with the extra six silos in 
Missile Field 1, has allowed us to continue to improve the 
capability and the reliability of the GBIs--both the CE-Is that 
are there, and now working on the CE-II.
    So the CE-II, which was the new kill vehicle, as we all 
know, had a failure. We have been able to improve that. There 
has been one test already; there is another test scheduled for 
the end of the year.
    So what we bought in that period of time is time to 
actually fix the GBIs and make them more reliable, because 
where we were in 2009 was not having the degree of confidence 
in the GBIs that we needed to have, particularly in the new 
ones. So with the work that has been done there, the--all the 
enhancements to the CE-I that have been done over the course of 
the last 4 years, and the work that is going on has increased 
the capability of those GBIs.
    Now with the 14, that is a big step forward. So we have 14 
more and they are going to be more capable than they would have 
been. And this will also help in looking at how we defend 
against anything that would develop from Iran as well as 
anything that develops from Korea.
    Mr. Rogers. Thank the lady.
    And the gentleman's time is expired.
    I do want to accept the letter that he offered for the 
record--without objection, so ordered--and remind you all, we 
had hoped to have this hearing an hour earlier, which would 
have given us time for a second round, but they have called us 
for votes.
    So the record will be held open for 10 days. Members may 
submit questions to you and, I would ask that you return those 
in writing.
    And with that, thank you again for your attendance. This 
hearing is adjourned.
    [Whereupon, at 5:06 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                              May 8, 2013

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 8, 2013

=======================================================================

      
                     Statement of Hon. Mike Rogers

            Chairman, House Subcommittee on Strategic Forces

                               Hearing on

            Fiscal Year 2014 National Defense Authorization

              Budget Request for Missile Defense Programs

                              May 8, 2013

    I would like to take this opportunity to thank our 
witnesses for being here today and investing their time in 
preparing their written and oral statements. We have a good 
panel today; our witnesses are:

        <bullet> LThe Honorable Madelyn Creedon, Assistant 
        Secretary of
        Defense, Global Strategic Affairs, Office of the 
        Secretary of Defense;
        <bullet> LVice Admiral James D. Syring, USN, Director, 
        Missile Defense Agency; and
        <bullet> LThe Honorable J. Michael Gilmore, Director, 
        Operational Test and Evaluation, Office of the 
        Secretary of Defense.

    Before I start my brief remarks, I'd just like to say, at 
the risk of giving you a big head, Admiral, we are grateful to 
have you here today in this position as Director. Those of us 
who follow missile defense closely, as I have been doing for my 
11 years on this committee, have noticed the significant 
difference at that agency since you have assumed your new 
position of responsibility. We are grateful for your service 
and its imposition on your family. And we are grateful to our 
other witnesses as well.
    I will be brief so that we can get into the good part of 
this hearing, which is your statements and our opportunity to 
ask questions. While I am pleased that the President adjusted 
his missile defense strategy to one more closely resembling the 
plans of the previous administration in recognition of the 
threat this country faces, I have to say that I continue to be 
concerned about what appears to be a lack of support for 
missile defense by this Administration.
    The cut to this year's budget request--$100 million from 
the topline, and even more when compared to last year's 
appropriated sums and the addition of new programs this year--
comes on top of more than $6 billion in cuts to the Missile 
Defense Agency since President Obama came to office in 2009, 
more than 16% below what was planned by the Bush 
administration. And while programs have been cancelled, like 
the PTSS and SM-3 block IIB programs, decisions I largely agree 
with, those funds have been hollowed out of the missile defense 
budget instead of kept in it. Even with the plus-up of $1 
billion over the next several years to implement Secretary 
Hagel's missile defense announcement on March 15th, we're still 
facing a further cut of $3 billion from the MDA topline across 
the President's FY14 FYDP.
    Yet the threat to the homeland is considerably greater this 
year than last:

        <bullet> LWhy are we waiting for enemies to field 
        capabilities before we build defenses?
        <bullet> LAre we going to anticipate the threat from 
        Iran and be ready to meet it, or just wait until they 
        deploy?

    I intend to explore these issues today.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                              May 8, 2013

=======================================================================




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              May 8, 2013

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. 1) The Committee has received briefings that indicate 
that one of only two SDACS (Solid Divert and Attitude Control System) 
suppliers is scheduled to complete all contracted design and 
development DACS work by the end of Fiscal Year 2013 and, without near-
term action, will no longer have work to retain its experienced 
engineering team. Is this a concern of the Agency and, if so, is the 
Agency prepared to take actions during the remainder of FY13 to 
preclude the disbandment of this team?
    Admiral Syring. Yes. The Agency is funding both Alliant Techsystems 
and Aerojet in Fiscal Year 2013. Alliant Techsystems is investigating 
and maturing lightweight, long-mission duration SDACS technology. 
Aerojet is developing more capable SDACS for the SM-3 IB and SM-3 IIA 
development programs.
    Mr. Rogers. 2) Following testimony before this committee in 2012, 
report language was included in the FY2013 House NDAA report regarding 
concerns over the absence of competition in the design and production 
of key missile defense technologies to include SM-3 Divert and Attitude 
Control Systems, which were specifically cited in the language. 
Included in the report was a requirement for the MDA Director to 
provide a report that detailed the risk associated with relying on a 
single supplier for critical technologies and Agency plans for how it 
intended to deal with those risks. What is the status of that report 
and would you please discuss the risks associated with relying on a 
single supplier for technologies such as DACS?
    Admiral Syring. The report is in internal review, and is 
anticipated to be delivered by August 30, 2013. Risk can be defined in 
terms of consequence of occurrence and likelihood of occurrence. The 
consequence of having a single supplier is that if the supplier should 
go out of business, we might not have a timely source for a critical 
component or subsystem. That would be severe. The likelihood of that 
occurring, especially for DACS, is remote.
    Mr. Rogers. 3) Do you believe SM-3 missiles deployed in CONUS have 
the performance capabilities to defend the United States from ballistic 
missiles launched by Iran?
    Also, please provide illustrations of the SM-3 capability 
engagement windows of SM-3 IA and IB missiles if deployed on Aegis Navy 
ships at suitable ship stations along the East Coast along the United 
States.
    Admiral Syring. The Missile Defense Agency (MDA) is prepared to 
respond to this question, but access to the information is protected by 
higher program security classification restrictions. MDA is currently 
working with the responsible department to enable access to this 
information.
    Mr. Rogers. 4) How important is it that we improve the kill 
assessment capability of the ground-based midcourse defense system? Are 
you, the commander of NORTHCOM, and the commander of STRATCOM close to 
an agreement on the way ahead to improve that capability? How feasible 
is it to leverage current capabilities? To what extent are new 
capabilities required? Is it feasible that the U.S. could significantly 
enhance this capability by the end of the decade?
    Admiral Syring. Improving kill assessment or post-intercept 
assessment can provide reliable, trustworthy and sufficient evidence 
which could influence warfighting considerations during an engagement 
and enable the warfighter to conserve GMD interceptor inventory. 
Confidence in post-intercept assessment could enable the warfighter to 
stop subsequent intercepts, change the number of interceptors allocated 
to later intercepts, change the targeting and timing of interceptors 
and perform consequence of intercept mitigation.
    We are making good progress and the assessments on how ``close'' we 
are will flow from discussions over the next two to three months. The 
Missile Defense Agency and NORTHCOM, through the Shot Management 
Assessment Cell, are conducting a joint analysis of post-intercept 
assessment options to assess performance of concepts singly or in 
combination with other options. The options selected will be 
incorporated into the BMDS Vision that is a future capabilities product 
being developed at the request of STRATCOM.
    Leveraging current capabilities is conceptually feasible and this 
assessment is part of the near-term options review. The post-intercept 
assessment study evaluates the performance of options singly or in 
combination with other options in the near, mid, and far term. The 
performance of the individual concepts will be assessed against cost to 
determine which post-intercept options provide the most cost-effective 
capability. The study will evaluate existing and new capabilities to 
determine the needed mix in order to accomplish post-intercept 
assessment.
    It is feasible that the U.S. could enhance this capability by the 
end of the decade. The post-intercept assessment study will examine 
near-, mid-, and far-term options to provide a post-intercept 
assessment capability.
    Mr. Rogers. 5) Were you satisfied that we had sufficient missiles 
available to the PACOM commander during the escalation in tensions and 
the threat of medium-range rocket launches by the North Korean regime? 
I am concerned that too many missiles were either at stockpiles at 
home, or in other theaters. What can be done to better allocate these 
resources?
    Admiral Syring. The Missile Defense Agency (MDA) supports the Joint 
Staff, the Services, and the Combatant Commanders through participation 
in the Warfighter Involvement Process. This process allows the 
warfighter to establish priorities for equipment and capabilities, and 
MDA satisfies those priorities within budget and schedule constraints. 
The final program plan is adjudicated by the Missile Defense Executive 
Board where all stakeholders are represented. This process ensures that 
maximum capability is provided within resources available.
    The question of ``sufficient missiles available to the PACOM 
commander'' is better answered by U.S. Pacific Command.
    Mr. Rogers. 6) Can you help me understand how the budget request 
supports technology development to build on the efforts of the Phantom 
Eye, DPALS, the Army's HELMD, the Navy's LaWS, to deploy missile 
defenses capable of engaging enemy missiles as the Airborne Laser 
proved is possible?
    Admiral Syring. The Missile Defense Agency's (MDA) FY 2014 budget 
request preserves the investments made in directed energy by firmly 
supporting the technology development required to demonstrate next-
generation, multimission directed energy systems. MDA's key investments 
include: high-energy, high-brightness electric lasers, high-altitude/
low-Mach platform characterization, high-altitude atmospheric 
characterization, and directed energy system concept definition.
    Specifically, we will continue to fund Phantom Eye flights, diode 
pumped alkali laser system (DPALS) progression, as well as fiber 
combined laser (FCL) technology joint development with the Defense 
Advanced Research Projects Agency (DARPA). Phantom Eye is scheduled to 
perform a series of flights to record platform conditions at high-
altitude/low-Mach to inform the design and packaging of high-powered 
laser payloads. We will characterize optical jitter at high altitudes 
using either the Phantom Eye or another high-altitude unmanned aerial 
vehicle. We will continue DPALS development to improve operability and 
performance. We will also continue FCL work with DARPA using fiber 
amplifiers procured by both Agencies to demonstrate increased laser 
power, multiple combining techniques and the ability to combine the 
large number of fiber lasers to achieve 100's of kilowatts at near-
perfect beam quality.
    The MDA continues to collaborate with the Services and other 
agencies. As we develop higher power, more compact lasers, they benefit 
everyone in the directed energy community, including the Army's High 
Energy Laser Mobile Demonstrator and the Navy's Laser Weapon System. 
Similarly, we benefit from the technology developed under these and 
other DOD laser programs.
    Mr. Rogers. 7) As you know, the United States has had no boost 
phase missile defense program since approximately 2009, when the Obama 
Administration terminated the Airborne Laser and the Kinetic Energy 
Interceptor. To be certain, there were technology and cost challenges 
with both systems, but there were also successes by both development 
programs.
    Sir, aren't there obvious advantages to engaging a missile in this 
phase of flight, such as precountermeasure and decoy release? Shouldn't 
we take a look at what options are possible for boost phase missile 
defense?
    Admiral Syring. There are at least three advantages to boost phase 
intercept. Conceptually, it puts pressure on adversary payload 
deployment timelines, thins out attacks, and denies unimpeded access 
into midcourse with complex countermeasures. Boost phase intercept 
thereby improves the effectiveness of the midcourse intercept layer.
    <bullet>  Evolving adversary capabilities have made effective and 
affordable boost phase intercept more challenging than when the 
airborne laser and kinetic energy interceptor were conceived. Longer 
range adversary ballistic missiles launched from deep inside adversary 
territory increase the boost phase engagement range required for 
intercept. They also increase the defensive standoff range outside an 
adversary's territory.
    Three technology advances potentially offer new opportunities for 
effective and affordable boost phase intercept, if these technologies 
can be successfully demonstrated through laboratory experimentation, 
proof-of-concept demos, and prototyping phases.

        <bullet>  First, high-efficiency, electric-powered, shorter 
        wavelength lasers that could be small and light enough to fit 
        on high-altitude unmanned air vehicles (UAVs)
        <bullet>  Second, a new generation of hydrogen-fueled UAVs 
        which could provide multiday endurance at high altitude (65,000 
        ft) above clouds and atmospheric turbulence
        <bullet>  Third, new designs for very small, light kill 
        vehicles which could enable much smaller and lighter 
        interceptors capable of high velocities required for kinetic 
        energy boost phase

    The Missile Defense Agency FY 2014 budget request includes funding 
to advance technologies in all three areas: two short wavelength 
electric lasers are being scaled up in the laboratory from kilowatts to 
tens of kilowatts; measurements of vibrations and high-altitude 
turbulence and optical propagation are planned, using existing high-
altitude UAVs. Last, advanced component technologies to enable small, 
light kill vehicles will be demonstrated.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COOPER
    Mr. Cooper. 8) General Dempsey testified before our committee that 
DOD was considering the deployment of Aegis ships for missile defense 
purposes to defend the East Coast as one of the options being 
considered. Is this in fact the plan, as stated by General Dempsey? Or 
is DOD only considering a missile defense site with ground-based 
interceptors? Is Aegis Ashore being considered? Why/why not?
    Secretary Creedon. [The information referred to is classified and 
retained in the committee files.]
    Mr. Cooper. 9) Secretary Kerry stated in April during a trip to 
Japan that ``Obviously if the threat disappears--i.e. North Korea 
denuclearizes--the same imperative does not exist at that point of time 
for us to have that kind of robust forward leaning posture of defense . 
. . And it would be our hope in the long run, or better yet in short 
run, that we can address that.'' He also added speaking in Tokyo that 
President Barack Obama ``deployed some additional missile defense 
capability precisely because of the threat of North Korea. And it is 
logical that if the threat of North Korea disappears because the 
peninsula denuclearizes, then obviously the threat no longer mandates 
that kind of posture'' but that ``there have been no agreements, no 
discussions; there's nothing actually on the table with respect to 
that.'' In response to these statements, HASC Republican members sent a 
letter to the President, arguing that the Obama administration has once 
again ``offered up America's missile defense as a bargaining chip.''
    <bullet>  Are there plans to reduce the missile defense posture and 
deployed forces in Asia?
    <bullet>  Do you anticipate some missile defense forces would have 
to be moved? Under what circumstances?
    Secretary Creedon. The U.S. approach to regional missile defense 
has not changed: we will continue to adapt our missile defenses to 
address the current and emerging threat. As the threat changes, so will 
our posture.
    The United States has no plans to reduce U.S. missile defense 
posture in the Asia/Pacific region at this time. U.S. policy on missile 
defense emphasizes the need for flexibility in U.S. missile defense 
plans and capabilities in response to evolving ballistic missile 
threats. Highly adaptable and relocatable missile defense assets 
represent the most prudent option for defending U.S. interests, allies, 
and partners across multiple regions in times of crisis or conflict.
    Mr. Cooper. 10) What analysis underpins the decision to deploy an 
additional 14 interceptors? Specifically how did we arrive at the 14 
number?
    Secretary Creedon. [The information referred to is classified and 
retained in the committee files.]
    Mr. Cooper. 11) In a 1999 National Intelligence Estimate, the U.S. 
National Intelligence Council stated: ``We assess that countries 
developing ballistic missiles,'' including North Korea and Iran, 
``would also develop various responses to U.S. theatre and national 
defenses . . . by the time they flight test their missiles.''
    Is that still the current assumption underpinning the response to 
the threat and being factored into missile defense tests to ensure that 
our missile defense system keeps ahead of the threat?
    Secretary Creedon. Yes, our current assumption of the threat, in 
the Missile Defense Agency (MDA), is consistent with the intelligence 
assessments published in the 1999 National Intelligence Estimates. MDA 
keeps ahead of the threat by ensuring that BMDS design and 
specifications are based on data that are consistent, not only with the 
most current intelligence assessments, but also extended beyond point 
designs provided by the Intelligence Community, including threat 
missiles that have not yet reached initial operational capability or 
have not yet been flight tested as part of the parametrically defined 
BMDS threat space. This expanded threat space provides a hedge against 
uncertainties in adversary capabilities. Finally, MDA ensures missile 
defense capabilities are tested using flight test targets that are 
based on the same threat representative intelligence assessments.
    Mr. Cooper. 12) Total missile defense costs have usually not 
accounted for operations and support costs or MILCON funding. As a 
result the cost for Aegis Ashore has increased from $837 million to 
$1.6 billion. What are the plans to more accurately assess costs, 
including a full-accounting of costs?
    Secretary Creedon. Baselines reported by the Missile Defense Agency 
(MDA) in the annual Ballistic Missile Defense System (BMDS) 
Accountability Report (BAR) describe program content. Missile defense 
operations and support costs reported in the BAR include those MDA 
expects to fund. MDA does not include in its Aegis Ashore BAR resource 
baselines the operations and support costs that are Navy's 
responsibility once transition and transfer of this missile defense 
capability is
complete.
    MDA reported its initial baseline for the Romania site of the 
Ashore Program in the MDA 2010 BAR at $966M. This cost estimate 
remained stable for the MDA 2011 BAR. The increase in the MDA 2012 BAR 
was a result of completion of design reviews and program definition 
which led to an updated system configuration and acquisition strategy. 
Also, to more accurately provide full-accounting of costs, 
approximately $600M in Military Construction, Site Activation, On Site 
Systems Engineering, and Non-tactical Communications estimates were 
moved to the Aegis Ashore Resource Baseline from other MDA program 
baselines. With these updates, the total cost reported in the 2012 BAR 
for the Aegis Ashore Romania baseline, which includes the PMRF site, 
was $1,588 million. The costs associated with Aegis Ashore have 
included in BMDS cost estimates, although not aligned with the Aegis 
Ashore Baseline prior to the 2012 BAR.
    In the 2013 BAR, MDA provided a revised Romania site resource 
baseline and an initial Poland site baseline. Both baselines include a 
full accounting of MDA cost. These costs form the basis for the annual 
President's Budget request for Aegis Ashore programs.

    Mr. Cooper. 13) Your stated plan is to recommend one site for an 
additional missile defense location by the end of the year. Yet, the 
NDAA FY 2013 requires DOD to perform Environmental Impact Statements 
for 3 sites. What are the reasons for recommending one site before the 
EIS process? Will it include a consideration of costs?
    What factors would support deployment of a third interceptor site 
on a short timeline? What are the tradeoffs with other necessary 
improvements to missile defense that may be required before the 
deployment of a third site?
    Admiral Syring. In accordance with the FY 2013 NDAA, Section 227, 
upon completion of the Continental United States Interceptor Site (CIS) 
Study, the Director of the Missile Defense Agency will recommend at 
least three locations of which at least two will be on the East Coast. 
A single Environmental Impact Statement will assess the candidate 
sites. MDA will evaluate cost for all potential CIS deployment sites.
    The main factor that would affect an acceleration of a third site 
deployment is the projected threat. There most likely would be 
tradeoffs between a third site and other potential system improvements. 
These other improvements include future investment in discrimination 
and sensor enhancements, upgrades to Clear and Cape Cod radars, 
additional AN/TPY-2 deployment to Japan, continued work on a GBI In-
Flight Interceptor Communications System Data Terminal at Fort Drum, 
New York, and continued use of the Sea-Based x-Band Radar during real-
world events.
    Mr. Cooper. 14) General Dempsey testified before our committee that 
DOD was considering the deployment of Aegis ships for missile defense 
purposes to defend the East Coast as one of the options being 
considered. Is this in fact the plan, as stated by General Dempsey? Or 
is DOD only considering a missile defense site with ground-based 
interceptors? Is Aegis Ashore being considered? Why/why not?
    Admiral Syring. [The information referred to is classified and 
retained in the committee files.]
    Mr. Cooper. 15) Please provide a classified answer on the current 
capability to provide shoot-look-shoot coverage of the United States, 
and what the constraints are. What are your priorities to improve our 
current S-L-S capability? What results must be achieved before the 
United States can meet Secretary Hagel's stated requirement that 
``complete confidence'' in the GBI interceptors was a prerequisite to 
deployment of the 14 additional GBI interceptors? Specifically, which 
flight or intercept tests must be successfully conducted and what 
capabilities must be demonstrated in order to meet this requirement?
    Admiral Syring. [The information referred to is classified and 
retained in the committee files.]
    Mr. Cooper. 16) In tests of the GBI, is a ``hit'' considered a 
``kill''? Are there any successful intercept tests where a hit would 
have not equated to a kill of the target? How do these assumptions 
impact the reliability of the GMD system?
    Admiral Syring. [The information referred to is classified and 
retained in the committee files.]
    Mr. Cooper. 17) What is the most pressing need for missile defense? 
Where do you recommend we focus our investments?
    Admiral Syring. The top priorities of the Missile Defense Agency 
are to improve homeland defense through successful completion of the 
Ground-based Midcourse Defense Return to Intercept path for Capability 
Enhancement (CE)-II Ground-Based Interceptors (GBIs), improving the 
performance, quality and reliability of GBIs and conducting a thorough 
investigation of the recent Flight Test GMD-07 (FTG-07) flight test 
failure of a CE-I GBI; achieve a full rate production decision for the 
Standard Missile-3 (SM-3) Block IB missile through successful execution 
of Flight Test Standard Missile-21/22 (FTM-21/22); fielding a 2nd Army/
Navy/Ground, Transportable Radar Surveillance and Control Series 2 (AN/
TPY-2) radar to Japan to improve homeland and regional defense; and 
continuing progress in meeting European Phased Adaptive Architecture 
Phase 2 deployment of Aegis Ashore to Romania.
    Additionally, future investment in Ballistic Missile Defense System 
(BMDS) discrimination and sensor capabilities would result in cost-
effective near-term improvements to homeland missile defense. These 
potential sensor enhancements would improve the BMDS kill chain and 
increase threat discrimination. The Department of Defense is conducting 
an evaluation of future investment options which will serve to inform 
decisions on our future BMDS architecture and budget requests.
    Mr. Cooper. 18) What are the options to improve discrimination for 
homeland missile defense?
    Admiral Syring. The top priorities of the Missile Defense Agency 
are to improve homeland defense through successful completion of the 
Ground-based Midcourse Defense Return to Intercept path for Capability 
Enhancement (CE)-II Ground-Based Interceptors (GBIs), improving the 
performance, quality and reliability of GBIs and conducting a thorough 
investigation of the recent Flight Test GMD-07 (FTG-07) flight test 
failure of a CE-I GBI; achieve a full rate production decision for the 
Standard Missile-3 (SM-3) Block IB missile through successful execution 
of Flight Test Standard Missile-21/22 (FTM-21/22); fielding a 2nd Army/
Navy/Ground, Transportable Radar Surveillance and Control Series 2 (AN/
TPY-2) radar to Japan to improve homeland and regional defense; and 
continuing progress in meeting European Phased Adaptive Architecture 
Phase 2 deployment of Aegis Ashore to Romania.
    Additionally, future investment in Ballistic Missile Defense System 
(BMDS) discrimination and sensor capabilities would result in cost-
effective near-term improvements to homeland missile defense. These 
potential sensor enhancements would improve the BMDS kill chain and 
increase threat discrimination. The Department of Defense is conducting 
an evaluation of future investment options which will serve to inform 
decisions on our future BMDS architecture and budget requests.
    Mr. Cooper. 19) What are your priorities to improve the reliability 
of the GBIs for the warfighter?
    Admiral Syring. Improving Ground-Based Interceptor (GBI) 
reliability is a top MDA priority for supporting the Warfighter. 
Increased reliability is the most cost-effective method of countering a 
growing ballistic missile threat because the Ground-based Midcourse 
Defense (GMD) system is able to negate more targets with the same 
number of fielded GBIs.
    In 2012, MDA aligned its GBI reliability focus through four primary 
initiatives for improving GBI reliability. Each of these initiatives is 
described below.
    GBI Fleet Upgrade Program: Removes fielded GBIs from silos, 
upgrades them to remove known risks, performs mandatory maintenance, 
replaces limited-life items, conducts acceptance testing, and returns 
the upgraded GBIs to the operational fleet. At the end of 4th QTR 
FY2013, there will be twelve upgraded GBIs in the operational fleet 
with one additional upgrade scheduled for FY2014.
    Flight Test Rotation Program: Removes older GBIs from silos, 
performs a limited upgrade to meet flight test configuration 
requirements, performs mandatory maintenance, replaces limited-life 
items and conducts acceptance testing. The interceptor is used in the 
flight test program and a new or upgraded spare GBI is reemplaced in 
the silo.
    GBI Reliability Growth Testing Program: Ensures design fixes are 
effective and eliminates risks. In the near term, FTG-06b will 
demonstrate design fixes for the problems uncovered in the FTG-06a 
flight test. MDA conducts additional on-going ground testing of 
components and assemblies to verify design fixes, demonstrate 
reliability, qualify parts, and increase confidence in component 
reliability.
    Component Reliability Program: Includes testing, analyzing 
performance trends, and identifies reliability improvements for GBI 
component hardware. The program identifies components with limited 
reliability history for accelerated aging testing to validate 
reliability predictions. In 2011, MDA awarded the GMD Development and 
Sustainment Contract (DSC) which promotes fleet reliability through its 
incentive structure and specifically addresses reliability 
improvements. First, the DSC requires the contractor to address known 
shortcomings with design improvements in both new and upgraded 
interceptors. Second, the contract requires extensive ground testing of 
interceptor components to validate current reliability predictions, or 
identify areas for improvement through redesign and replacement. 
Finally, the DSC enhances the Stockpile Reliability Program activity to 
test and track aging effects on the fielded systems.
    In light of the recent FTG-07 flight test failure, MDA initiated an 
independent assessment of the reliability of the GBI fleet. The 
assessment will increase confidence by thoroughly investigating the GBI 
fleet and identifying design, manufacturing, quality, and acceptance 
test issues with GBI configurations that might preclude reliable GBI 
operation. The assessment will also identify changes to the design and/
or manufacturing processes to provide improvements in reliability. MDA 
also plans to authorize a trade study of existing GBI reliability 
initiatives to determine any improvements that will yield increases to 
overall fleet reliability and/or confidence.
    Finally, under the DSC, MDA will deploy a follow-on GBI with an 
updated booster to address obsolescence issues and an updated 
Exoatmospheric Kill Vehicle (EKV) known as the Capability Enhancement 
(CE)-II Block 1 (CE-II Blk 1) that incorporates performance and 
reliability improvements. In parallel, MDA is currently planning the 
next generation of EKV to follow the CE-II EKVs. The options currently 
under evaluation incorporate performance enhancements and increased 
reliability, based on knowledge gained through MDA's on-going 
reliability improvement efforts.
    Mr. Cooper. 20) Please provide a chart (classified if necessary) 
listing the improved capability of the CE-II versus the CE-I kill 
vehicle associated with the new ground-based interceptor? What is the 
current cost of a CE-II GBI? What are the estimated costs to modify the 
CE-II kill vehicles already deployed on interceptors?
    Admiral Syring. [The information referred to is classified and 
retained in the committee files.]
    Mr. Cooper. 21) What are the risks and benefits of procuring 
booster stacks for Ground-Based Interceptors in FY14, when GBI 
procurement was not slated to begin until FY16?
    Admiral Syring. Pursuing an accelerated procurement of booster 
stacks (i.e. motors) in fiscal year (FY) 2014 would not benefit the MDA 
or its ability to deliver on the Department's commitment for 44 GBIs. 
This initiative would present two concerns to the Ground-based 
Midcourse Defense program. First, initiating the procurement in FY 2014 
would lead to delivery of the boosters earlier than needed and would 
result in increased costs of approximately $1.5 million per year to the 
program due to motor storage while they wait for integration into the 
14 GBIs. Second, once the motors are manufactured, the shelf-life of 
the motor begins. Delivering the motors earlier than needed to support 
the delivery of the 14 GBIs would reduce usable expected life of these 
components.
    Mr. Cooper. 22) What analysis underpins the decision to deploy an 
additional 14 interceptors? Specifically how did we arrive at the 14 
number?
    Admiral Syring. [The information referred to is classified and 
retained in the committee files.]
    Mr. Cooper. 23) In a 1999 National Intelligence Estimate, the U.S. 
National Intelligence Council stated: ``We assess that countries 
developing ballistic missiles,'' including North Korea and Iran, 
``would also develop various responses to U.S. theatre and national 
defenses . . . by the time they flight test their missiles.''
    Is that still the current assumption underpinning the response to 
the threat and being factored into missile defense tests to ensure that 
our missile defense system keeps ahead of the threat?
    Admiral Syring. Yes, our current assumption of the threat, in the 
Missile Defense Agency (MDA), is consistent with the intelligence 
assessments published in the 1999 National Intelligence Estimates. MDA 
keeps ahead of the threat by ensuring that BMDS design and 
specifications are based on data that are consistent, not only with the 
most current intelligence assessments, but also extended beyond point 
designs provided by the Intelligence Community, including threat 
missiles that have not yet reached initial operational capability or 
not yet been flight tested as part of the parametrically defined BMDS 
threat space. This expanded threat space provides a hedge against 
uncertainties in adversary capabilities. Finally, MDA ensures missile 
defense capabilities are tested using flight test targets that are 
based on the same threat representative intelligence assessments.
    Mr. Cooper. 24) What are the benefits of the Administration's 
commitment to ``fly-before-you-buy'' in the context of the additional 
14 GBI procurement?
    Admiral Syring. ``Fly-before-you-buy'' ensures that designs are 
qualified and tested before being deployed for operational use. This 
approach ensures that fielded assets are fully capable of meeting 
required performance standards and defending the homeland, and reduces 
cost risks associated with subsequent rework and upgrades.
    The Missile Defense Agency (MDA) is committed to testing Capability 
Enhancement (CE)-II ground-based interceptors (GBIs) with the new 
version of firmware (V10) in the inertial measurement unit before more 
CE-IIs are deployed.
    We will conduct an intercept flight of an updated CE-II, Block I 
GBI design (called the Common Booster Avionics and Obsolescence design 
(CBAU)/CE-II Block I Exoatmospheric Kill Vehicle) in FY 2016. As 
requested in the President's Budget for FY 2014, production of the 14 
additional GBIs will begin in FY 2016. They are currently planned to be 
manufactured to this CE-II, Block I GBI configuration.
    Mr. Cooper. 25) Total missile defense costs have usually not 
accounted for operations and support costs or MILCON funding. As a 
result the cost for Aegis Ashore has increased from $837 million to 
$1.6 billion. What are the plans to more accurately assess costs, 
including a full-accounting of costs?
    Admiral Syring. Baselines reported by the Missile Defense Agency 
(MDA) in the annual Ballistic Missile Defense System (BMDS) 
Accountability Report (BAR) describe program content. Missile defense 
operations and support costs reported in the BAR include those MDA 
expects to fund. MDA does not include in its Aegis Ashore BAR resource 
baselines the operations and support costs that are Navy's 
responsibility once transition and transfer of this missile defense 
capability is complete.
    MDA reported its initial baseline for the Romania site of the 
Ashore Program in the MDA 2010 BAR at $966M. This cost estimate 
remained stable for the MDA 2011 BAR. The increase in the MDA 2012 BAR 
was a result of completion of design reviews and program definition 
which led to an updated system configuration and acquisition strategy. 
Also, to more accurately provide full-accounting of costs, 
approximately $600M in Military Construction, Site Activation, On Site 
Systems Engineering, and Non-tactical Communications estimates were 
moved to the Aegis Ashore Resource Baseline from other MDA program 
baselines. With these updates, the total cost reported in the 2012 BAR 
for the Aegis Ashore Romania baseline, which includes the PMRF site, 
was $1,588 million. The costs associated with Aegis Ashore have 
included in BMDS cost estimates, although not aligned with the Aegis 
Ashore Baseline prior to the 2012 BAR.
    In the 2013 BAR, MDA provided a revised Romania site resource 
baseline and an initial Poland site baseline. Both baselines include a 
full accounting of MDA cost. These costs form the basis for the annual 
President's Budget request for Aegis Ashore programs.
    Mr. Cooper. 26) What are the contingency plans if the planned July 
CE-1 or next CE-2 flight intercept tests fail?
    Admiral Syring. On July 5, 2013, the Missile Defense Agency 
conducted Flight Test Ground-Based Interceptor (GBI) (FTG)-07. The test 
objectives included engagement of a target by a Capability Enhancement 
(CE)-I Exoatmospheric Kill Vehicle (EKV), and performing all EKV 
functions to discriminate and intercept a lethal object from a 
representative Intercontinental Ballistic Missile target scene. The 
target met all requirements, and with the exception of the GBI, all 
elements of the Ballistic Missile Defense System (BMDS) functioned as 
planned. The GBI successfully launched, but the target was not 
intercepted. MDA has initiated a Failure Review Board (FRB) to 
determine the root cause of the failure. Once the FRB is complete, MDA 
will implement corrective actions and replan future intercept flight 
tests.
    In parallel with the FTG-07 FRB, MDA will verify there is 
separation (the absence of potential common flaw) to ensure that the 
cause of the FTG-07 failure is not present in the CE-II GBIs. Pending 
the result of these analyses, MDA (with COCOM consideration) will plan 
to execute FTG-06b as currently scheduled for March-May in the 2014 
flight test window. If MDA cannot establish separation, the FTG-06b 
flight test date will depend on results of the FTG-07 FRB and 
implementation of any corrective action.
    If CE-II fails, MDA will conduct a thorough investigation and 
develop options for returning to intercept testing once root cause and 
the need for design or process changes is known.
    Mr. Cooper. 27) Sensors and radars, and particularly SBX are 
increasingly becoming one of the most important assets required to 
defend the homeland. What are the plans for SBX and what are the plans 
to protect SBX from attack? What are the plans for providing a 
redundancy capability? What is the limiting factor on deploying the SBX 
and is MDA considering procuring a resupply vessel for the SBX?
    Admiral Syring.
    <bullet>  The budget request for SBX in FY 2014 maintains SBX in 
limited test support status (LTSS). In LTSS the SBX supports the BMDS 
ground and flight test program and remains available for contingency 
activation for homeland defense.
    <bullet>  The Department is currently studying how to better define 
the Ballistic Missile Defense System (BMDS) sensor architecture of the 
future for homeland defense, to include the role of the SBX.
    <bullet>  Commander Third Fleet Operations Order 201 specifies 
detailed force protection measures to protect SBX-1 from attack. These 
measures are in accordance with Commander, U.S. Strategic Command 
Instruction 538-02, ``BMDS Physical Security Program.'' To meet these 
requirements, SBX uses a contracted security force and contracted 
mariners for internal security, with other Navy force protection 
assets. Assets include Naval Base security (when in port) and the Fleet 
Commander-provided security (when under way). These will provide 
escorts based on operational considerations and increasing force 
protection levels.
    Regarding a redundancy capability, the Department is currently 
studying how to better define the BMDS sensor architecture of the 
future for homeland defense. These studies are assessing potential 
radar solutions such as type, location, and technical performance.
    Funding is the only limiting factor for short-term deployment of 
the SBX. For long-term deployment of the SBX, limiting factors are 
funding and the lack of an offshore support vessel (OSV). The 
President's Budget for FY 2014 doesn't include an OSV. There are no 
plans to procure an OSV.

    Mr. Cooper. 28) In a 1999 National Intelligence Estimate, the U.S. 
National Intelligence Council stated: ``We assess that countries 
developing ballistic missiles,'' including North Korea and Iran, 
``would also develop various responses to U.S. theatre and national 
defenses . . . by the time they flight test their missiles.''
    Is that still the current assumption underpinning the response to 
the threat and being factored into missile defense tests to ensure that 
our missile defense system keeps ahead of the threat?
    Dr. Gilmore. Yes. The Missile Defense Agency, the Ballistic Missile 
Defense System Operational Test Agency Team, and my office work 
together to develop and execute a test program for both theater/
regional and national/strategic missile defense systems accounting for 
the capabilities the intelligence agencies project the threats these 
systems are meant to negate could possess. This plan is codified in the 
Ballistic Missile Defense System Integrated Master Test Plan.
    Mr. Cooper. 29) What are the benefits of the Administration's 
commitment to ``fly-before-you-buy'' in the context of the additional 
14 GBI procurement?
    Dr. Gilmore. The benefit of any ``fly-before-you-buy'' acquisition 
program is that system performance is verified before substantial 
commitment of resources to production. This approach makes it less 
likely that additional resources will have to be committed to fix 
problems discovered after production items are bought, delivered, and 
fielded. The Department's experience indicates that problems discovered 
after production items are delivered and fielded are more expensive to 
fix than problems discovered (through testing) before production 
commences.
    Mr. Cooper. 30) What are the contingency plans if the planned July 
CE-1 or next CE-2 flight intercept tests fail?
    Dr. Gilmore. Subsequent to the hearing upon which this question is 
based, the July intercept flight test of an interceptor equipped with a 
Capability Enhancement I (CE-I) Exo-atmospheric Kill Vehicle (EKV) 
failed. The investigation of this failure is under way. The content of 
the plan for dealing with this failure will be based on its root cause, 
which is not yet known. Similarly, if the flight test of the CE-II EKV, 
currently scheduled for the third quarter of Fiscal Year 2014 fails, 
the plan for dealing with that failure would depend on the details of 
its root cause.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. 31) What results must be achieved before the United 
States can meet Secretary Hagel's stated requirement that ``complete 
confidence'' in the Ground-Based interceptors (GBI) is a prerequisite 
to deployment of the 14 additional interceptors? Specifically, which 
flight or intercept tests must be successfully conducted and what 
capabilities must be demonstrated in order to meet this
requirement?
    Secretary Creedon. Complete confidence will involve testing of both 
Capability Enhancement (CE)-II and CE-II Block I since the 44 Ground-
Based Interceptors (GBIs) will have both variants. Before fielding the 
additional 14 Ground-Based Interceptors (GBIs), MDA will first complete 
its Return to Intercept (RTI) program by conducting extensive ground 
testing of the Capability Enhancement (CE)-II Exoatmospheric Kill 
Vehicle (EKV) to ensure the root causes of the Flight Test GBI (FTG)-
06a flight test failure have been corrected and to qualify the design. 
The CE-II EKV is currently scheduled to be demonstrated in an intercept 
flight test (FTG-06b) planned for a March--May 2014 test window. 
Successful completion of the flight test will allow resumption of 
planned CE-II GBI deliveries for operational use. Additionally, MDA is 
currently developing the CE-II Block I design that will incorporate 
enhancements to improve performance and reliability. MDA will conduct 
extensive modeling and simulation and ground testing to fully qualify 
the CE-II Block I design. MDA will then demonstrate the CE-II Block I 
EKV in an intercept flight test (FTG-15) scheduled for FY2016. The 
successful completion of ground and flight testing of the legacy CE-I 
and CE-II Block I designs will provide complete confidence in the 
fielded CE-II fleet and for the deployment of additional interceptors 
required to achieve 44 operational GBIs by the end of FY2017. In 
response to the FTG-07 CE-I failure, MDA established a failure review 
board of experts from government, the national laboratories, and 
industry. The board is analyzing the FTG-07 data to establish the root 
cause of the failure and will attempt to duplicate the failure sequence 
through simulation and component ground test. When MDA has determined 
the cause of the FTG-07 failure, then MDA will work with the COCOMS and 
Pentagon leadership to determine the timing and configurations for 
future CE-I/CE-II flight testing.
    Mr. Langevin. 32) Will the 14 additional Ground-based Interceptors 
that were announced in March 2013 be equipped with the CE-II kill 
vehicle? If the next intercept test of the new CE-II kill vehicle 
fails, will the deployment of the planned 14 additional GBI 
interceptors still take place by 2017?
    Secretary Creedon. The 14 additional Ground-Based Interceptors 
(GBIs), as announced in March 2013, will use an upgraded version of the 
current Capability Enhancement (CE)-II Exoatmospheric Kill Vehicle 
(EKV), known as CE-II Block I. Should there be a failure of the next 
CE-II flight test (FTG-06b), MDA will conduct a failure review to 
determine root cause and assess implications for CE-II EKVs. Depending 
on the results of that assessment, MDA will develop and implement the 
necessary changes. The planned objective to deploy 44 operational GBIs 
by the end of Fiscal Year 2017 could be impacted.
    Mr. Langevin. 33) How does the FY14 budget request preserve the 
investments made in the directed energy programs, and what role does 
MDA see for DE capabilities in the future?
    Secretary Creedon. The Missile Defense Agency's (MDA) FY14 budget 
request preserves the investments made in directed energy by firmly 
supporting technology development to demonstrate next-generation, 
multimission directed energy systems. The MDA's key investments include 
high-energy, high-brightness electric lasers, high-altitude/low-Mach 
platform characterization, high-altitude atmospheric characterization, 
and directed energy system concept definition.
    Specifically, we will continue to fund Phantom Eye flights, diode 
pumped alkali laser system (DPALS) progression, as well as fiber 
combined laser (FCL) technology joint development with the Defense 
Advanced Research Projects Agency (DARPA). Phantom Eye is scheduled to 
perform a series of flights to record platform conditions at high-
altitude/low-Mach. This will inform the design and packaging of high-
powered laser payloads. We will characterize optical jitter at high 
altitudes using either the Phantom Eye or another high-altitude 
unmanned aerial vehicle (UAV). We will continue DPALS development to 
improve operability and performance. We will also continue FCL work 
with DARPA using fiber amplifiers procured by both Agencies. This work 
is to demonstrate increased laser power, multiple combining techniques 
and the ability to combine the large number of fiber lasers to achieve 
100's of kilowatts at near-perfect beam quality.
    Directed energy offers unique game-changing capabilities, including 
discrimination and ultimately boost-phase engagement. To this end, MDA 
will partner with industry in FY14 to define feasible concepts to 
integrate high-energy lasers into UAVs for missile defense.

    Mr. Langevin. 34) What results must be achieved before the United 
States can meet Secretary Hagel's stated requirement that ``complete 
confidence'' in the Ground-Based interceptors (GBI) is a prerequisite 
to deployment of the 14 additional interceptors? Specifically, which 
flight or intercept tests must be successfully conducted and what 
capabilities must be demonstrated in order to meet this
requirement?
    Admiral Syring. Complete confidence will involve testing of both 
Capability Enhancement (CE)-II and CE-II Block 1 since the 44 Ground-
Based Interceptors (GBIs) will have both variants. Before fielding the 
additional 14 Ground-Based Interceptors (GBIs), MDA will first complete 
its Return to Intercept (RTI) program by conducting extensive ground 
testing of the Capability Enhancement (CE)-II Exoatmospheric Kill 
Vehicle (EKV) to ensure the root causes of the Flight Test GBI (FTG)-
06a flight test failure have been corrected and to qualify the design. 
The CE-II EKV is currently scheduled to be demonstrated in an intercept 
flight test (FTG-06b) planned for a March--May 2014 test window. 
Successful completion of the flight test will allow resumption of 
planned CE-II GBI deliveries for operational use.
    Additionally, MDA is currently developing the CE-II Block I design 
that will incorporate enhancements to improve performance and 
reliability. MDA will conduct extensive modeling and simulation and 
ground testing to fully qualify the CE-II Block I design. MDA will then 
demonstrate the CE-II Block I EKV in an intercept flight test (FTG-15) 
scheduled for FY2016. The successful completion of ground and flight 
testing of the legacy CE-II and CE-II Block I designs will provide 
complete confidence in the fielded CE-II fleet and for the deployment 
of additional interceptors required to achieve 44 operational GBIs by 
the end of FY2017. In response to the FTG-07 CE-I failure, MDA 
established a failure review board of experts from the Government, the 
national laboratories, and industry. The board is analyzing the FTG-07 
data to establish the root cause of the failure and will attempt to 
duplicate the failure sequence through simulation and component ground 
test. When MDA has determined the cause of the FTG-07 failure, then MDA 
will work with the COCOMS and Pentagon leadership to determine the 
timing and configurations for future CE-I/CE-II flight testing.
    Mr. Langevin. 35) Will the 14 additional Ground-based Interceptors 
that were announced in March 2013 be equipped with the CE-II kill 
vehicle? If the next intercept test of the new CE-II kill vehicle 
fails, will the deployment of the planned 14 additional GBI 
interceptors still take place by 2017?
    Admiral Syring. The 14 additional Ground-Based Interceptors (GBIs), 
as announced in March 2013, will use an upgraded version of the current 
Capability Enhancement (CE)-II Exoatmospheric Kill Vehicle (EKV), known 
as CE-II Block I. Should there be a failure of the next CE-II flight 
test (FTG-06b), MDA will conduct a failure review to determine root 
cause and assess implications for CE-II EKVs. Depending on the results 
of that assessment, MDA will develop and implement the necessary 
changes. The planned objective to deploy 44 operational GBIs by the end 
of fiscal year 2017 could be impacted.
    Mr. Langevin. 36) How does the FY14 budget request preserve the 
investments made in the directed energy programs, and what role does 
MDA see for DE capabilities in the future?
    Admiral Syring. The Missile Defense Agency's (MDA) FY14 budget 
request preserves the investments made in directed energy by firmly 
supporting technology development to demonstrate next-generation, 
multimission directed energy systems. The MDA's key investments include 
high-energy, high-brightness electric lasers, high-altitude/low-Mach 
platform characterization, high-altitude atmospheric characterization, 
and directed energy system concept definition.
    Specifically, we will continue to fund Phantom Eye flights, diode 
pumped alkali laser system (DPALS) progression, as well as fiber 
combined laser (FCL) technology joint development with the Defense 
Advanced Research Projects Agency (DARPA). Phantom Eye is scheduled to 
perform a series of flights to record platform conditions at high-
altitude/low-Mach. This will inform the design and packaging of high-
powered laser payloads. We will characterize optical jitter at high 
altitudes using either the Phantom Eye or another high-altitude 
unmanned aerial vehicle (UAV). We will continue DPALS development to 
improve operability and performance. We will also continue FCL work 
with DARPA using fiber amplifiers procured by both Agencies. This work 
is to demonstrate increased laser power, multiple combining techniques 
and the ability to combine the large number of fiber lasers to achieve 
100's of kilowatts at near-perfect beam quality.
    Directed energy offers unique game-changing capabilities, including 
discrimination and ultimately boost-phase engagement. To this end, MDA 
will partner with industry in FY14 to define feasible concepts to 
integrate high-energy lasers into UAVs for the missile defense of 
space.
    Mr. Langevin. 37) In the FY13 NDAA, funding for an additional TPY-2 
radar was included to meet growing COCOM demands for missile defense. 
This demand has grown even since passage of that legislation--how does 
MDA intend to continue TPY-2 production?
    In the area of RDTE, what would you identify as your top 3-4 
priorities?
    Admiral Syring. The Missile Defense Agency (MDA) supports the Joint 
Staff, the Services, and combatant commanders through participation in 
the Warfighter involvement process. This process allows the Warfighter 
to set priorities for equipment and capabilities. We satisfy those 
priorities within budget and schedule constraints. The final program 
plan is adjudicated by the Missile Defense Executive Board where all 
stakeholders are represented. This ensures that the President's Budget 
provides maximum capability within resources available.
    Our top RDT&E priorities are:

    <bullet>  Debris mitigation
    <bullet>  Improved discrimination
    <bullet>  Performance against the future advanced threats

    Mr. Langevin. 38) What results must be achieved before the United 
States can meet Secretary Hagel's stated requirement that ``complete 
confidence'' in the Ground-Based interceptors (GBI) is a prerequisite 
to deployment of the 14 additional interceptors? Specifically, which 
flight or intercept tests must be successfully conducted and what 
capabilities must be demonstrated in order to meet this
requirement?
    Dr. Gilmore. In my view, the minimum prerequisite for proceeding 
with additional production of interceptors and kill vehicles comprises 
the following: (1) At least one successful intercept using a Ground-
Based Interceptor equipped with a redesigned Capability Enhancement II 
(CE-II) kill vehicle conducted under the same conditions as FTG-06, in 
which a CE-II failed to intercept its intended target. This flight 
test, designated FTG-06b, is currently scheduled to occur in the third 
quarter of Fiscal Year 2014. (2) Additionally, determination of the 
root cause of the failure of FTG-07 (which used a CE-I kill vehicle) 
and, if that failure is associated with components and/or software used 
in the CE-II kill vehicle, demonstration through appropriate testing of 
its correction.
    Mr. Langevin. 39) Will the 14 additional Ground-based Interceptors 
that were announced in March 2013 be equipped with the CE-II kill 
vehicle? If the next intercept test of the new CE-II kill vehicle 
fails, will the deployment of the planned 14 additional GBI 
interceptors still take place by 2017?
    Dr. Gilmore. The Capability Enhancement I (CE-I) Exo-atmospheric 
Kill Vehicle (EKV) is no longer in production. The fourteen additional 
Ground-based Interceptors (GBIs) will be equipped with CE-II EKVs. If 
the next flight test of the CE-II EKV currently scheduled for the third 
quarter of Fiscal Year 2014 fails, any recommendation I would make 
regarding production and deployment of additional interceptors and kill 
vehicles would depend upon the root cause of the failure. If the cause 
of the failure was a significant fault common to all the interceptors, 
I would not recommend additional production until a correction was 
determined and verified through appropriate testing.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COFFMAN
    Mr. Coffman. 40) What is the status of the CAPE's evaluation of the 
cost of the European Phased Adaptive Approach?
    Secretary Creedon. As described in the 2010 Ballistic Missile 
Defense Review, the United States is pursuing the European Phased 
Adaptive Approach (EPAA) as well as missile defense approaches in other 
key geographic regions. Each of these approaches is tailored to the 
threats and circumstances unique to each region and will evolve over 
time as the threat changes and new missile defense capabilities become 
available. The approaches also heavily utilize mobile and relocatable 
assets in order to provide maximum flexibility within and between 
various regions where missile defense capabilities are assigned. This 
factor alone complicates the analysis of which costs are attributable 
to any given approach. In the case of the EPAA, certain elements, such 
as the Aegis Ashore sites planned for construction in Romania (2015 
timeframe) and Poland (2018 timeframe) are attributable to the EPAA. 
However, other elements, such as missile defense-capable Aegis ships 
operating in Europe and Standard Missile 3 interceptors, are available 
for worldwide deployment and were not procured solely for the purpose 
of the EPAA. Therefore, an attempt to attribute a portion of the cost 
of these elements to the EPAA could be subjective. In addition, changes 
to the EPAA announced by Secretary Hagel in March 2013 and the 
uncertainty associated with the budgetary environment in Fiscal Year 
(FY) 2014 and beyond complicate further an attempt to prepare an 
accurate life-cycle cost estimate. Detailed cost information for 
ballistic missile defense (BMD) capabilities utilized in the EPAA 
mission can be found in documents already submitted to Congress, 
including Missile Defense Agency's annual Selected Acquisition Report 
and BMD System Accountability Report, and the FY 2014 President's 
Budget justification
documents.
    Mr. Coffman. 41) Has the Department calculated how much the EPAA 
will cost the United States over the Future Years Defense Plan, and if 
so, how much?
    Secretary Creedon. As described in the 2010 Ballistic Missile 
Defense Review, the United States is pursuing the European Phased 
Adaptive Approach (EPAA) as well as missile defense approaches in other 
key geographic regions. Each of these approaches is tailored to the 
threats and circumstances unique to each region and will evolve over 
time as the threat changes and new missile defense capabilities become 
available. The approaches also heavily utilize mobile and relocatable 
assets in order to provide maximum flexibility within and between 
various regions where missile defense capabilities are assigned. This 
factor alone complicates the analysis of which costs are attributable 
to any given approach. In the case of the the EPAA, certain elements, 
such as the Aegis Ashore sites planned for construction in Romania 
(2015 timeframe) and Poland (2018 timeframe) are attributable to the 
EPAA. However, other elements, such as missile defense-capable Aegis 
ships operating in Europe and Standard Missile 3 interceptors, are 
available for worldwide deployment and were not procured solely for the 
purpose of the EPAA. Therefore, an attempt to attribute a portion of 
the cost of these elements to the EPAA could be subjective. In 
addition, changes to EPAA announced by Secretary Hagel in March 2013 
and the uncertainty associated with the budgetary environment in Fiscal 
Year (FY) 2014 and beyond complicate further an attempt to prepare an 
accurate life-cycle cost estimate. Detailed cost information for 
ballistic missile defense (BMD) capabilities utilized in the EPAA 
mission can be found in documents already submitted to Congress, 
including Missile Defense Agency's annual Selected Acquisition Report 
and BMD System Accountability Report, and the FY 2014 President's 
Budget justification documents.
    Mr. Coffman. 42) Inasmuch as the President offered the EPAA to 
Europe free-of-charge, before the Budget Control Act, at what point 
does the Administration tell Europe, which has a larger economy than we 
do, that it's time it pays a share of these costs?
    Secretary Creedon. The United States is not alone in contributing 
to ballistic missile defense (BMD) in Europe. In partnership with NATO 
Ally host nations, the United States continues to implement the 
European Phased Adaptive Approach (EPAA), which will provide BMD for 
U.S. forces and facilities in and around the region, and for our 
Allies, as well as contribute to U.S. homeland missile defenses.
    At the same time, we are working closely with the Allies to develop 
NATO's BMD effort. The NATO Allies committed to spend approximately 
$1.3 billion in Common Funding for the expansion of NATO's missile 
defense command and control program through 2020 (the U.S. share of 
common funding is approximately 22 percent). The Active Layered Theater 
Ballistic Missile Defense (ALTBMD) program is a command and control 
network that will allow Allied missile defense assets to connect to 
each other and share high-precision data. Several Allies have also 
announced national contributions, and other Allies are considering 
upgrades to achieve BMD capabilities or new BMD acquisitions. The 
United States continues to encourage additional Allied national asset 
contributions to NATO BMD.
    The EPAA is the U.S. national contribution to the NATO missile 
defense effort. As a central principle since the founding of the NATO 
Alliance, weapons are volunteered by Allies to support a NATO mission. 
The NATO Alliance itself does not ``buy'' weapons systems such as 
interceptors or ships, and Allies do not seek NATO Common Funding for 
their national asset contributions. U.S. requests for NATO Common 
Funding to pay for the EPAA would be contrary to longstanding NATO 
Alliance principles as well as Presidential-level commitments to the 
Allies. Such requests would seriously damage support among the Allies 
for NATO BMD and the EPAA, thus reducing the prospects for further 
Allied asset contributions.
    Mr. Coffman. 43) What is the status of resource pooling, like SM-3 
missiles, for the EPAA to defray some U.S. costs and perhaps enable the 
U.S. to reallocate those missiles to another theater?
    Secretary Creedon. The United States encourages strongly additional 
Allied national asset contributions to NATO's missile defense effort. 
Several Allies have announced national BMD asset contributions to the 
NATO effort, while other Allies are considering upgrades to achieve BMD 
capabilities or new BMD acquisitions. One of the possibilities 
discussed among the Allies has been the concept of interceptor pooling 
or sharing as a potential contribution to NATO's missile defense 
effort. Some Allied governments have experimented with these concepts 
during exercise events designed to examine coalition missile defense 
policy and operational issues. However, no Allied government has yet 
decided to pursue an interceptor pooling concept. The United States 
will continue to encourage further Allied investments in NATO BMD.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. BROOKS
    Mr. Brooks. 44) The MDA Objective Simulation Framework (OSF) 
contract was awarded competitively in FY12 and was designed to provide 
flexible and robust solutions to assess the U.S. ability to fully 
protect the homeland as well as provide the damage denial role vital to 
the success of our military commanders' missions abroad. However, the 
program has been subjected to a continuing series of budget reductions, 
restructuring and program slippages which have undercut the overall OSF 
program objectives. I understand there has also been a recent 
additional cut of $2.5M that is requiring an immediate layoff of key 
technical personnel whose talents are vital to the continued success of 
OSF.
    Would you please provide me a thorough review of the history and 
future funding and plans of the OSF contract at the earliest 
opportunity?
    Admiral Syring. After a full and open competition acquisition 
process, the OSF contract was competitively awarded on August 30, 2011 
to Teledyne Brown Engineering, Huntsville, AL. The contract start date 
was September 1, 2011. The contract type is an indefinite delivery/
indefinite quantity, with an ordering period running through September 
30, 2016.
    The funding profile for current contract execution is:

        <bullet>  FY 2011--Actual work incurred: $.932M
        <bullet>  FY 2012--Actual work incurred: $28.446M
        <bullet>  FY 2013--Planned: $40.852M (reflects the renegotiated 
        FY 2013 contract value following sequestration reductions, 
        ?$2.126M)
        <bullet>  FY 2014--Planned: $30.599M
        <bullet>  FY 2015--Planned: $23.199M
        <bullet>  FY 2016--Planned: $23.469M
        <bullet>  Actual work incurred against OSF contract as of May 
        2013: $60.915M

    The contract is on track in FY 2013 to spend to the sequestration 
funding level, a reduction of $2.126M versus the $2.5M referenced 
above. The Government cannot guide or influence the contractor's 
staffing profiles, labor skill mix or manning levels to support the 
contract requirements. OSF capabilities were retained during FY 2013 
replanning activities. Impacts were absorbed by managing additional 
schedule risk. The priority given to the OSF contract has not changed. 
Plans were established that enable all awarded OSF requirements to be 
met by September 30, 2016 (contract expiration).
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. TURNER
    Mr. Turner. 45) I'm concerned that the budget request last year, 
continued this year in the President's Budget for FY14, limits the U.S. 
to the procurement of only 12 TPY-2 radars and 6 THAAD batteries. You 
participate in extensive capabilities prioritization with the combatant 
commanders when putting together the MDA budget request. Do they have 
sufficient THAAD and TPY-2 capabilities?
    Admiral Syring. The Missile Defense Agency (MDA) supports the Joint 
Staff, the Services, and the Combatant Commanders through participation 
in the Warfighter Involvement Process. This process allows the 
warfighter to establish priorities for equipment and capabilities, and 
MDA satisfies those priorities within budget and schedule constraints. 
The final program plan is adjudicated by the Missile Defense Executive 
Board where all stakeholders are represented. This process ensures that 
maximum capability is provided within resources available.
    The question of ``sufficient THAAD and AN/TPY-2 capabilities'' is 
more likely best answered by U.S. Strategic Command as the Global 
Synchronizer for Ballistic Missile Defense System capabilities.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. CARSON
    Mr. Carson. 46) The United States has the premier system of 
university-based research institutions in the world. What steps is MDA 
taking to better utilize this network for research, development, and 
testing? What role will University Affiliated Research Centers play in 
this effort and what capabilities do they offer that differ from those 
offered by other universities?
    Admiral Syring. The Missile Defense Agency (MDA) has an active 
university outreach effort that includes:

        <bullet>  Campus visits from the MDA Director and top level MDA 
        management
        <bullet>  A ``Campus Champion'' program that teams MDA leaders 
        with specific universities to develop strategic long-term 
        relationships with academic institutions
        <bullet>  Distributing a ``University Programs Playbook'' 
        handout to help university researchers understand the needs of 
        the Agency and how to submit research proposals
        <bullet>  A cooperative international technology development 
        program teaming U.S. universities with foreign universities of 
        allied nations

    The MDA pursues research opportunities with the Nation's 
universities through broad agency announcements posted on the 
FedBizOpps website twice a year. Research topics are derived from the 
mission and needs of the Ballistic Missile Defense System (BMDS). Our 
partners in research, development, and testing of the BMDS include 
Johns Hopkins University Applied Physics Laboratory, Georgia Tech 
Research Institute, Utah State University Space Dynamics laboratory, 
MIT/Lincoln Laboratory, and Carnegie Mellon Software Engineering 
Institute.
    Collectively, these institutions are providing more than 600 staff 
years of technical effort in fiscal year 2013. To maintain awareness of 
the capabilities of these and other university-affiliated institutions, 
we established the position of Federally Funded Research and 
Development Center (FFRDC)/University Affiliated Research Center (UARC) 
Technical Advisor in the office of the Director for Engineering (DE). 
Each of the UARCs supporting MDA has a representative, or ``Captain,'' 
who works directly with the FFRDC/UARC Technical Advisor on a regular 
basis to identify opportunities for contribution to the MDA and create 
collaboration with peer institutions. We also established an annual 
meeting at each of the laboratories to review the work program for MDA 
and identify potential areas of research and development to apply to 
our programs. UARCs offer technical support to us that is different in 
two significant ways from support provided by other universities. 
First, UARCs are established to maintain a long-term, strategic 
relationship with DOD and their sponsoring agency. This relationship is 
based on their unique set of essential core competencies applicable to 
the sponsors' missions. As a result, they understand both the technical 
and the mission aspects of the MDA's challenges. Second, as recipients 
of sole-source contracts, UARCs are required to maintain a conflict-of-
interest free position with respect to their research activities. We 
can therefore rely on them for objective technical advice and 
recommendations.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
